Audit Report




OIG-10-041
Audit of the Alcohol and Tobacco Tax & Trade Bureau’s
Fiscal Year 2009 Balance Sheet


June 16, 2010




Office of
Inspector General
Department of the Treasury
Although the Alcohol and Tobacco Tax and Trade Bureau’s Annual Report conforms to
   the requirements of Section 508 of the Rehabilitation Act, the Auditors’ Reports,
 contained on pages 55 through 66, are not searchable as required by Section 8L. of
   the Inspector General Act of 1978 (5 U.S.C. App.), as amended by the Inspector
                            General Reform Act of 2008.
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                June 16, 2010


            MEMORANDUM FOR JOHN J. MANFREDA, ADMINISTRATOR
                           ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
                                    Fiscal Year 2009 Balance Sheet


            I am pleased to transmit the attached audited Alcohol and Tobacco Tax and Trade
            Bureau (TTB) balance sheet for fiscal year 2009. Under a contract monitored by
            the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of TTB’s balance sheet as of September 30,
            2009. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the balance sheet was fairly presented, in all
            material respects, in conformity with U.S. generally accepted accounting principles.
            However, KPMG LLP identified two significant deficiencies related to controls over
            (1) property capitalization; and (2) accounts payable accruals, testing and review of
            journal entry support, and review of allowances for accounts receivable, which
            were considered material weaknesses. Further, KPMG LLP found no instances of
            reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TTB’s balance sheet or conclusions about the effectiveness
of internal control or compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated May 28, 2010 and the
conclusions expressed in the reports. However, our review disclosed no instances
where KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
                                                                 TTB 2009 AnnuAl RepoRT



Table of Contents
Table of Contents  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . i
Introduction . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
Message from the Administrator  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
Vision, Mission, and Values .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . viii
TTB Mission Goals . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ix
                  Goals for Collect the Revenue . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ix
                  Goals for Protect the Public .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ix
                  Goal for Management and Organizational Excellence  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . ix

Part I: Management’s Discussion and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                  Profile of a Bureau  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                  Bureau Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                  Performance Summary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
                  Financial Summary  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24
                  FY 2009 Bureau Budget .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26
                  Bureau Challenges . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27

Part II: Program Performance Results  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
                  Performance Overview .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
                  Summary of Collect the Revenue Performance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30
                  Summary of Protect the Public Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32
                  Summary of Management and Organizational Excellence Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34




                                                                                      Ta bl e o f Co n te n ts
                                                                                                  i
                                                            TTB 2009 AnnuAl RepoRT


Message from the Chief Financial Officer . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
Part III: Financial Results, Position, Condition and Auditors’ Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
                Budget Highlights by Fund Account  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
                Linking Budget and Program Spending  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
                Systems and Controls  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50
                Financial Statements, Accompanying Notes,and Supplemental Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54
                Independent Auditors’ Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55
                                Notes to the Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
                                Required Supplementary Information (Unaudited) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93
                                Other Accompanying Information (Unaudited)  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 95

Part IV: Appendices  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99
                Principal Officers of TTB .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99
                TTB Organization Chart  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 100
                Connecting the Treasury and TTB Strategic Plans  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 101




                                                                                Ta bl e o f Co n te n ts
                                                                                           ii
                                TTB 2009 AnnuAl RepoRT



Introduction
Addressing the economic challenges we face as a Nation requires each Federal agency to apply tenets of
good government and fiscal responsibility. Within the Annual Report for fiscal year (FY) 2009, the Alcohol
and Tobacco Tax and Trade Bureau (TTB) combines program performance and financial data to account
for how effectively the Bureau translates its program dollars into quality service, responsible management
practices, consumer protection, and increased tax revenue.
TTB elects to present this data annually in an effort to communicate relevant performance and financial
information. As part of the performance and budget cycle, this report grants the Bureau an opportunity to
inform stakeholders of its successes and explain any shortfalls.
The report defines the Bureau’s mission, strategic goals, and major programs, and summarizes its progress
in meeting its objectives, as stated in TTB’s five-year strategic plan. Also included is valuable financial
information that discusses how TTB expended its budget on its major programs, and accounted for tax
collections from the alcohol, tobacco, firearms, and ammunition industries.
This information is presented in four parts:

    •	 Part I – Management’s Discussion and Analysis. This section provides an overview of the
       Bureau including its mission and programs, highlights of program and financial operations, and a
       summary of TTB’s program performance.

    •	 Part II – Program Performance Results. In this section, the report provides a summary of
       results achieved for each performance measure and an overview of the Bureau’s accomplishments
       under its Management and Organizational Excellence mission goal.

    •	 Part III – Financial Results, Position, Condition and Auditors’ Reports. The transactions
       and records that comprise TTB’s financial statements are part of the consolidated financial data
       for the Department of the Treasury, which are annually audited at the Departmental level. For the
       purposes of TTB’s Annual Report, the Bureau includes an audited FY 2009 balance sheet, a report
       on the Bureau’s internal controls over financial reporting for the FY 2009 balance sheet, and a
       report on TTB’s compliance with laws and regulations as they apply to the recording and reporting
       of FY 2009 balance sheet amounts. The Treasury Office of the Inspector General’s audit plan for FY
       2010 will include an audit of the TTB FY 2010 financial statements. This report section also includes
       a message from the TTB Chief Financial Officer, a discussion of budget activities for each of the
       Bureau’s seven major programs, and supplemental information, such as a history of Federal excise
       tax collections for the past decade.

    •	 Part IV – Appendices. This section includes a listing of TTB principal officers, an organization
       chart, and strategic planning information that demonstrates linkages between TTB’s plan and the
       overall Department of the Treasury’s mission and goals.




                                               In tro du cti o n
                                                      iii
TTB 2009 AnnuAl RepoRT




          iv
                                TTB 2009 AnnuAl RepoRT



Message from the Administrator
                                   The call to do more with less is not new in the halls of government,
                                   but it seems especially critical given the economic times in which we
                                   find ourselves. At the Alcohol and Tobacco Tax and Trade Bureau (TTB),
                                   we have taken the charge to practice better government and greater
                                   accountability as an opportunity to renew our focus on efficiency and
                                   transparency in our operations.
                                   The Bureau’s ability to respond and adapt in the face of change was
                                   tested this fiscal year with the passage of the most significant tax rate
                                   increase on tobacco products in history. In February 2009, Congress
                                   enacted the Children’s Health Insurance Program Reauthorization Act
                                   (CHIPRA), effectively doubling the Bureau’s collections for the tobacco
                                   commodity and bringing total annual excise tax collections to almost
                                   $21 billion.
The Bureau mobilized its staff to affect the statutory changes which, in addition to imposing significant
increases in the Federal excise tax on all tobacco products and cigarette papers and tubes, levied a floor
stocks tax (FST) on tobacco products held for sale as of April 1, 2009. 
Nearly every TTB office was touched by provisions of the Act—from auditors conducting inventory reviews
in the field to our regulations writers who were responsible for issuing industry guidance and revised
regulations. Our IT staff also met the challenge, deploying the necessary updates regarding taxpayer
and permit information to our consolidated tax information database within a matter of months and
without additional funding. The Bureau’s new Voice over Internet Protocol (VoIP) phone system also
was instrumental in this massive effort, as its enhanced call management capabilities enabled our tax
specialists at the National Revenue Center (NRC) to field tens of thousands of phone calls from industry.
Our proactive response to preparing the requisite tax and operations forms, and timely issuance of the
implementing regulations, facilitated the processing of $1.2 billion in FST receipts. Our sound operating
decisions in response to this mandate resulted in a return on investment in FY 2009 of nearly $430 for
every $1 TTB expended on collection activities.
Effective partnerships proved critical in meeting our mission to Collect the Revenue and Protect the
Public. In implementing CHIPRA, TTB sought assistance from State governments in identifying the
retailers and wholesalers of tobacco who were liable for the tobacco FST. These entities operate outside
the TTB regulatory scheme, and ensuring the proper payment of FST required unprecedented levels of
communication and cooperation from industry and other government agencies.
In the area of consumer protection, TTB maintained its proactive approach to preventing potential threats
to the U.S. food supply by initiating collaborations with scientists from the Food Emergency Response
Network, Food and Drug Administration, Centers for Disease Control and Prevention, and National
Institutes of Health. The joint efforts and combined expertise will improve the effectiveness of the TTB




                                 Message fro m th e Adm i n i stra to r
                                                v
                                TTB 2009 AnnuAl RepoRT


Alcohol Beverage Safety and Verification Program, which includes the analysis of alcohol beverages for
a number of potentially harmful adulterants or contaminants. This program involves activities related
to consumer complaints, imported product evaluations, and sampling for food safety issues, pesticide
residue, and allergens. TTB also implemented the second cycle of its Alcohol Beverage Sampling Program
to ensure marketed malt beverage products comply with TTB regulations in order to better protect
consumers from inaccurate or misleading labels on products available in the marketplace.
Cooperation with U.S. foreign trading partners through the TTB Trade Facilitation Program has been
another primary focus in FY 2009. Our work in this area helps to strengthen the U.S. economy by
facilitating import and export trade in alcohol and tobacco products, while balancing consumer protection
standards. During this fiscal year, TTB made progress on international agreements with multiple
counterpart agencies in Brazil, Italy, the Republic of Georgia, and France. These agreements facilitate trade
by increasing mutual understanding of each country’s alcohol and tobacco production requirements, and
labeling and licensing standards.
The risk to the revenue posed by the diversion of alcohol and tobacco products from the legal chain of
commerce is another paramount concern for TTB, and is one that we are addressing through interagency
partnerships. At the direction of Congress, TTB was tasked to conduct a study to determine the
magnitude of tobacco smuggling in the United States and to make recommendations on how to combat
the illicit tobacco trade.  TTB made significant progress in developing its study methodology to determine
the Federal revenue loss from tobacco smuggling, and coordinated this effort with 32 Federal and State
agencies and several industry members. TTB findings and recommendations to address the illegal tobacco
market, due to Congress in FY 2010, will become a cornerstone of TTB’s enforcement efforts to prevent
diversion. 
In monitoring the operations of the legitimate industry, educational outreach remained a core TTB strategy
in sustaining the high rate of compliance displayed by our taxpayers. Building on the success of last
year’s event, TTB sponsored TTB Expo 2009 to ensure industry has the necessary information to comply
with Federal requirements related to alcohol, tobacco, firearms, and ammunition. Under the tagline
“Compliance through Education,” the event attracted 700 industry members, and offered 78 instructional
sessions and more than 30 exhibition booths. Attendees also received hands-on demonstrations of our
electronic filing options in the e-Gov Hall—including a preview of the upcoming Formulas Online system.
Reducing taxpayer burden and improving service through technology is a strategic priority at TTB, with the
ultimate goal of enabling industry members to file all payments, returns, reports, and applications online.
In FY 2009, TTB invested in technology that will automate the permit application and authorization
process, moving the Bureau from a paper-intensive, repetitive system to a simplified and secure Web-
based filing solution. TTB expects this shift in operations to achieve efficiencies and performance
improvements of measurable value to industry applicants and the Bureau.
The combined efforts and personal initiative displayed by TTB employees resulted in the accomplishments
described in this annual report. We’ve never been more focused as an agency, with employees committed
to the mission and showing high rates of job satisfaction. TTB improved three positions in the standings
on the 2009 Best Places to Work survey, ranking 7th out of 216 Federal organizations polled by the




                                 Message fro m th e Adm i n i stra to r
                                                vi
                                TTB 2009 Annual Report


Partnership for Public Service. TTB ranked first for Family-Friendly Culture and Benefits and third for
Strategic Management.
Further, as the performance data in this report indicates, we were able to execute our mission effectively,
even under difficult fiscal constraints and despite new mandates and increased workloads. This report
also holds the Bureau to a new standard in its presentation of financial information. In past years our
financial statements were consolidated with those of the Department of the Treasury. In FY 2009, an
independent accounting firm conducted an audit of TTB’s FY 2009 balance sheet. In FY 2010, TTB will
undergo an independent audit of its FY 2010 financial statements. In the year ahead, we will continue to
pursue greater accountability and transparency in all areas of our operations and to leverage our resources
through effective partnerships and technology enhancements to better meet our mission.




                                             John J. Manfreda
                                              Administrator




                                 Message fro m th e Adm i n i stra to r
                                               vi i
                                TTB 2009 AnnuAl RepoRT



Vision, Mission, and Values

Vision
Our vision is to maintain an organization of people who value each other and who treat each other
and their customers with the respect that they deserve. We intend to uphold the laws, for which we
are responsible, in a fair, equitable, and appropriate manner, affording all an opportunity to have their
opinions heard without prejudice. We intend to carry out our mission without imposing inappropriate or
undue burden on those from which TTB collects taxes and those TTB regulates.


Mission
The mission of TTB is to:

    •	 Collect alcohol, tobacco, firearms, and ammunition excise taxes that are rightfully due;

    •	 Protect the consumer of alcohol beverages through compliance programs that are based upon
       education and enforcement of the industry to ensure an effectively regulated marketplace; and

    •	 Assist industry members to understand and comply with Federal tax, product, and marketing
       requirements associated with the commodities we regulate.


Values
We value each other and those we serve. This Bureau:

    •	 Upholds the highest standards of excellence and integrity;

    •	 Provides quality service and promotes strong external partnerships;

    •	 Develops a diverse, innovative, and well-trained workforce in order to achieve our goals;

    •	 Embraces learning and change in order to meet the challenges of the future.




                                    V ision, Mi ssi o n , a n d Va l u e s
                                                  vi i i
                               TTB 2009 AnnuAl RepoRT



TTB Mission Goals

Goals for Collect the Revenue
•	 Voluntary Compliance:
  Provide high quality service, while imposing the least regulatory burden.

•	 Tax Verification and Validation:
  Promote voluntary compliance and eliminate or prevent tax evasion and other criminal conduct.

•	 Effective and Efficient Tax Collection Systems:
  Provide the most effective and efficient system for the collection of all revenue that is rightfully due.


Goals for Protect the Public
•	 Business Integrity:
  Assure that only persons who carry permits as authorized by statute operate within the industries TTB
  regulates.

•	 Product Integrity:
  Help industry members comply with all Federal labeling and advertising requirements for their
  products.

•	 Market Integrity:
  Assure the alcohol marketplace is free from anti-competitive practices.

•	 Effective and Efficient Systems to Promote Economic Opportunity:
  Facilitate economic opportunity and growth by maximizing TTB Protect the Public systems’
  effectiveness and efficiencies.


Goal for Management and Organizational Excellence
•	 Management-Supported Optimum Program Effectiveness and
   Efficiency:
  Ensure that all TTB programs operate at optimum efficiency and effectiveness and with full
  accountability, by providing high-quality management and administrative support.




                                         TTB Mi ssi o n Go a l s
                                                  ix
TTB 2009 Annual Report




          x
                                TTB 2009 AnnuAl RepoRT



Part I:
Management’s Discussion and Analysis

Profile of a Bureau
The mission of the Alcohol and Tobacco Tax and Trade Bureau (TTB) is to collect alcohol, tobacco, firearms,
and ammunition excises taxes that are rightfully due and to protect the consumer of alcohol beverages
from unsafe or improperly labeled products and from unfair competitive practices in the trade of alcohol.
Put simply, TTB “Collects the Revenue” and “Protects the Public” through seven major regulatory and
compliance programs.
The Bureau was formed in January 2003, under the Homeland Security Act of 2002, but its history began
more than 200 years ago as one of the earliest Federal tax collection agencies. Today, TTB operates under
the authorities of the Internal Revenue Code of 1986 and the Federal Alcohol Administration Act (FAA
Act), including the Alcoholic Beverage Labeling Act of 1988 and the Webb-Kenyon Act.


Collect the Revenue
TTB is the third largest tax collection agency in the U.S. Government (behind the Internal Revenue
Service and U.S. Customs and Border Protection), and its collections duties help to ensure that the Federal
Government has the cash resources needed to operate.
Since FY 2000, tax receipts for TTB and its predecessor agency, the Bureau of Alcohol, Tobacco, and
Firearms (ATF), totaled between $14 billion and $15 billion annually. In this fiscal year, TTB collected
$20.6 billion in alcohol, tobacco, and firearms and ammunition excise taxes—an increase of 41 percent
over FY 2008.
The $6 billion increase in revenue collections in FY 2009 is mostly attributable to increased receipts from
the tobacco industry. With the passage of the Children’s Health Insurance Program Reauthorization
Act (CHIPRA) in February 2009, Congress imposed significantly increased tax rates on tobacco products
and introduced requirements for permits and taxes on products which had not previously been taxed
or regulated. The statutory provisions include a new permit requirement for processed tobacco
manufacturers and importers. The Act also expands the definition of “roll-your-own” tobacco to include
cigar materials.
CHIPRA also levied a floor stocks tax (FST), a one-time excise tax placed on a commodity undergoing a
tax increase, on all tobacco products held for sale as of April 1, 2009. TTB ensured collection of FST from
tobacco wholesalers and retailers by working closely with State agencies and some of the largest tobacco
manufacturers and distributors to identify industry members and retailers most likely to have substantial
quantities of tobacco products in inventory. In FY 2009, TTB processed more than 133,000 receipts and
collected a record $1.2 billion of FST.




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                    1
                                   TTB 2009 AnnuAl RepoRT


Another contributing factor to the spike in excise tax collections was the rise in Firearms and Ammunition
Excise Tax (FAET) collections. In early October 2009, collections were up 45 percent compared to the prior
fiscal year, the greatest annual increase in FAET collections in the history of this agency. In comparison,
the average annual increase for fiscal years 1993 to 2008 was 6 percent. A recent surge in firearms sales
influenced the increased collections, but the work of specialists at the National Revenue Center (NRC)
also played a part in ensuring that industry remitted the taxes that are lawfully due to the Government.
The NRC is responsible for collecting and accounting for the alcohol, tobacco, firearms, and ammunition
excise taxes due to TTB. These functions, and the Bureau’s other collection activities, are administered
under two primary programs—the Alcohol and Tobacco Program and the FAET Program. TTB directs a
majority share of its Collect the Revenue budget resources to the Alcohol and Tobacco Program, as these
industries constitute more than 98 percent of the Bureau’s revenue collections. Both of these Collect
the Revenue programs require that TTB perform the necessary tax processing, verification, audit, and
investigation activities to calculate and collect the excise taxes due.
Before the Bureau can determine tax liability, a tax class must be assigned to alcohol and tobacco products
based on regulatory standards. For alcohol beverages, classification requires that the Bureau review
the formula of certain products, like flavored malt beverages (FMB), before they enter the market. For
example, if a review of the formula were to disclose that the finished FMB product would derive more
than 49 percent of its alcohol by volume from added flavors containing alcohol, the product would be
reclassified and taxed as a distilled spirit, rather than a malt beverage. In FY 2009, TTB processed nearly
6,300 formulas, lab analysis reports, and pre-import evaluations to ensure Federal production standards
were met.




   Tobacco barns were once an essential
   component of the air-curing process for
   tobacco in the United States.  As technology
   advanced, and industry grew to rely on more
   efficient curing techniques and equipment,
   tobacco barns became little more than
   remnants of the past. Because of their
   historic significance to colonial American life,
   the tobacco barns of Southern Maryland were
   listed in the 11 Most Endangered Historic
   Places in 2004 by the National Trust for
   Historic Preservation.




                          Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                   2
                                TTB 2009 Annual Report


TTB also conducts post-market product evaluations to check for proper tax classification. As an example,
TTB receives numerous samples of cigar products from manufacturers and importers seeking verification
that the product is a cigar rather than a cigarette.  The samples are submitted not only for Federal excise
tax purposes, but because some States defer to TTB for such determinations.  In classifying such a product
under the Internal Revenue Code, TTB evaluates the product’s wrapper, the type of tobacco used in the
filler, the product’s appearance, and its packaging and labeling.  Misclassification of such products would
have a significant consequence on revenue collection, as small cigars are taxed at a fraction of the cigarette
tax rate.
Accomplishing the Collect the Revenue mission also requires the Bureau’s auditors, investigators, and
tax specialists to work in concert to verify and validate that industry members pay the proper amount of
tax on the regulated commodity. At the NRC, tax specialists reconcile the tax returns against the industry
members’ operational reports to verify the proper payment of tax. The NRC also processes claims,
computes penalties and interest, and issues notice and demand letters to taxpayers who missed or are late
in filing payments. In cases where an industry member fails to comply with various laws and regulations,
TTB negotiates Offers-in-Compromise to recover lost tax revenue, plus interest and penalties.
Working on taxpayer premises, TTB field personnel audit production records and returns to ensure
compliance with Federal requirements. To conserve and more efficiently use its resources, TTB uses a
risk-based selection model for determining audit targets. In FY 2009, the Bureau completed audits for 171
industry members, and completed the audit fieldwork for 94 percent of its audit plan. Though traditional
on-premises audit work was down slightly compared to FY 2008, TTB also conducted more than 200
field visits associated with the collection of the tobacco FST enacted under CHIPRA. Completing these
inventory reviews and implementing other CHIPRA requirements required TTB to redeploy resources in
the second fiscal quarter to better manage workloads.
The CHIPRA legislation also required a major information campaign. The NRC developed and mailed
information packets to more than 475,000 businesses, and the specialists handled almost 50,000 phone
calls related to the FST. Specialists also developed Frequently Asked Questions on CHIPRA and the FST
for the TTB Web site, and later updated the information to include Frequently Made Mistakes to address
and offer guidance on how to complete the required tax forms. These efforts were instrumental in the
processing of tax returns and payments that amounted to $1.2 billion in FST and $20.6 billion in excise
taxes.


Protect the Public
TTB facilitates growth in the U.S. economy by enabling qualified applicants to enter business as an alcohol
producer, wholesaler or importer, or as a tobacco products manufacturer, importer or exporter. Since
2004, the number of applicants filing for an original permit or registration with TTB has grown 53 percent
to more than 5,500 in FY 2009. Today, the Bureau regulates 49,600 industry members, an increase of 29
percent over the same five-year period.
Under its FAA Act authority, TTB conducts a comprehensive screening of each applicant prior to issuing a
permit to determine his or her eligibility to operate within the regulated industries. Through this process,




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                    3
                                 TTB 2009 Annual Report


and other activities under its Permits and Business Assurance Program, TTB prevents prohibited persons—
including organized crime groups and terrorist networks—from commencing operations and potentially
diverting products from legitimate commercial channels in order to fund illicit activity.
In addition to field work to ensure those operating within the regulated industries are properly permitted,
TTB monitors compliance with Federal permit requirements among importers by comparing the import
records in the U.S. Customs and Border Protection’s International Trade Data System to the permit records
on file in the TTB Integrated Revenue Information System (IRIS). TTB intelligence analysts are able to
identify entities importing product illegally through this comparison and respond by issuing cease and
desist letters to the individuals. These efforts to address detected violations have proven effective, as all of
the persons notified by TTB have come into compliance or ceased operations.
Efficiency in permit processing is equally critical to the Department of the Treasury’s goals of improved
economic opportunity. Improving turnaround time for permit application processing enables alcohol
and tobacco permit holders to begin operating businesses sooner, facilitating U.S. economic growth. Due
to strategic improvements in the application investigation process, TTB was able to maintain the 64-
day turnaround time achieved in FY 2008 despite a 4 percent increase in the number of original permits
processed.
TTB is also charged with assuring that the alcohol marketplace is free from practices that would stifle
competition. As part of the Trade Facilitation Program, TTB has reinvigorated FAA trade practices activities
to investigate acts that violate Federal law relating to alcohol beverage marketing practices. TTB also
works to address barriers in the international marketplace by partnering with other Federal agencies and
participating in the negotiation of international trade agreements related to alcohol and tobacco products.
In FY 2009, TTB made significant progress on international agreements with multiple counterpart agencies
in Brazil, Italy, the Republic of Georgia, and France. These agreements facilitate trade by increasing mutual
understanding of each country’s alcohol and tobacco production, labeling, and licensing requirements,



   A winery informs consumers of the
   geographic pedigree of its grape wine by
   using an appellation of origin on its product
   label. An American Viticultural Area
   (AVA) is a specific type of appellation, and
   represents a delimited grape growing area
   in the United States with distinguishable
   features that would effect growing conditions,
   such as climate and soil. The approved
   AVAs, and descriptions of the established
   boundaries, are published in the Code of
   Federal Regulations under Part 9 of Title 27,
   Chapter I.




                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                  4
                                TTB 2009 Annual Report


and by providing a process for the exchange of regulatory information that has the potential to impact
trade, compliance, and product safety.
Consumer confidence is essential to ensuring that U.S. and world economies perform at their full
economic potential. To ensure the integrity of foreign and domestic alcohol beverage products for sale in
the U.S. marketplace, TTB investigates consumer complaints, suspected cases of product adulteration or
contamination, and reports of unsafe imported products as part of the Bureau’s Advertising, Labeling, and
Product Safety Program. The program also includes the routine analysis of sampled alcohol beverages
for limited and prohibited ingredients, such as thujone, methanol, and toxic heavy metals. In addition,
wines are analyzed to ensure safe levels of pesticides and ochratoxin-A, and malt beverages are tested
for mycotoxins. As appropriate, the Bureau shares the results of the laboratory’s analyses with TTB
investigators and representatives from other regulatory and enforcement agencies. For example, analytical
testing performed by TTB’s Beverage Alcohol Laboratory found that a Jamaican roots wine product
violated Food and Drug Administration (FDA) regulations. This information was shared with FDA and
U.S. customs officials at the port of entry, and resulted in the interception of a shipment of the adulterated
product by an unlicensed importer. Hundreds of bottles of adulterated wine were prevented from
reaching consumers due to this joint effort.
TTB’s Advertising, Labeling, and Product Safety Program also assures that industry members provide
full and accurate information on alcohol labels and in advertisements. Before an alcohol beverage can
enter commerce, TTB completes a review of the product label to ensure the label contains all mandatory
information and does not mislead the consumer. In addition, labels are reviewed for compliance with the
Alcohol Beverage Labeling Act, which mandates that a Government health warning statement appear on
all alcohol beverages for sale and distribution in the United States.
The number of applications for label approval, or Certificates of Label Approval (COLAs), that TTB
receives increased steadily between fiscal years 2004 and 2008, with an overall growth rate of 27 percent.
In FY 2009, the Bureau processed nearly 125,000 COLAs, a decline of 6 percent from the prior year and
the first reversal of the growth trend since the Bureau began tracking this metric. The decline is partly
attributable to the economic downturn, as the cost of redesigning labels or introducing new products may
have been prohibitive. Another key reason for the decline in the number of applications received relates
to the rise in electronic filing rates for label applications, which grew by 12 percent in FY 2009. Paper
applications that require correction and are resubmitted by industry members are counted multiple times
toward the total of applications processed. Electronic applications are only counted once, as they can be
rerouted electronically to the applicant for corrections with minimal burden and without the assignment
of a new TTB identification number. Again in FY 2009, the significant majority of label applications
received were for wine products. The wine industry submitted 84 percent of the label applications
processed by TTB.
Once alcohol beverages enter the marketplace, TTB monitors labeling compliance through the Alcohol
Beverage Sampling Program (ABSP). This involves examining a statistically-valid sample of domestic and
imported wine, spirits, and malt beverage products to determine if the labels meet Federal requirements,
and if the contents of the bottle match the label description. This process includes a chemical analysis of




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                    5
                                TTB 2009 Annual Report


selected products by the TTB laboratory for identification and product safety purposes. The second cycle of
the ABSP was undertaken in FY 2009 and focused on malt beverage products. The pending results of this
sampling program will provide a baseline for the level of compliance from this industry segment.
A formal protocol for these consumer protection activities was developed and internally published in FY
2009 in the Alcohol Beverage Safety and Verification Handbook to ensure immediate communication and
responsive action to potential health hazard issues involving products regulated by TTB.
TTB also reviews advertisements for alcohol beverage products under the Alcohol Beverage Advertising
Program. A representative sample of ads from television, radio, the Internet, and other ad sources are
collected and reviewed for compliance with Federal regulations. This year’s program centered on malt
beverage advertisements, and the findings will be released to TTB management with the ABSP results.
In all of the Collect the Revenue and Protect the Public program areas, TTB emphasizes voluntary
compliance from the industry through its outreach efforts. The Bureau sponsors seminars and workshops
to educate the industry on Federal requirements in the areas of manufacturing, marketing, importing and
exporting, and paying tax on alcohol and tobacco products, and firearms and ammunition.
In FY 2009, TTB sponsored the second TTB Expo to provide advanced instruction on Federal compliance
requirements for all segments of the regulated industries. The event consisted of almost 80 educational
sessions presented by subject matter experts from within TTB offices, as well as from requisite State
or Federal agencies. Exhibition booths provided information and demonstrations to more than 700
attendees. The response from the industry confirmed that there is a need for a large-scale, comprehensive
seminar on a regular basis.
TTB also employs a dedicated staff of industry analysts and liaisons to provide industry members and
the States with direct assistance on specific needs or guidance on broader issues affecting the regulated
commodities.


Organizational Structure
The TTB executive staff includes the Administrator and Deputy Administrator, and four Assistant
Administrators (AA) for the directorates of Headquarters Operations, Field Operations, Management/
Chief Financial Officer, and Information Resources/Chief Information Officer. The AA, Headquarters
Operations is principally responsible for the Bureau’s consumer protection activities, and the AA, Field
Operations oversees the Bureau’s revenue collection operations. The AAs for Management/CFO and
Information Resources/CIO are jointly responsible for the objectives set forth under the Bureau’s goal to
pursue excellence in its management functions. Also on the executive management team are the Director,
Office of Inspection, the Director, Equal Employment Opportunity and Diversity Advancement, and the
Executive Liaison for Industry and State Matters. The Bureau’s Chief Counsel serves TTB and its mission,
but reports through an independent chain of command to the Treasury Office of the General Counsel.
The Bureau has an authorized workforce of 525 employees and occupies facilities throughout the United
States. TTB headquarters offices are located in Washington, D.C., and employ about 150 analysts,
specialists, attorneys, and management personnel. The largest contingent of TTB employees is located at




                        Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 6
                                 TTB 2009 Annual Report


the National Revenue Center in Cincinnati, Ohio, where about 200 specialists and analysts process tax
returns and permit applications.
The remaining TTB employees are located in field offices established in several major U.S. cities, as well as
Puerto Rico, or at TTB’s laboratory facilities located in Beltsville, Maryland and Walnut Creek, California.
The Maryland facility is jointly owned by TTB and the Department of Justice’s Bureau of Alcohol, Tobacco,
Firearms, and Explosives.


Bureau Highlights
Congress Passes Historic Increase of Tobacco Tax Rate
The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA), signed into law in
February 2009, imposed statutory amendments that affected TTB operations in a number of ways. In
response to this legislation, TTB offices reacted swiftly and decisively to address several operational
challenges and to meet our regulatory responsibilities.
Briefly, the Act dramatically
increased the Federal excise tax
on tobacco products, with the
exception of large cigars, and
instituted a floor stocks tax (FST)
on existing tobacco products held
in inventory. An FST is a one-
time tax placed on a commodity
undergoing a tax rate increase.
CHIPRA also expanded the
definition of what constitutes
roll-your-own tobacco; imposed
new permit requirements on
manufacturers and importers of
processed tobacco; and amended Some of the team members at the TTB National Revenue Center who
the basis for denial, suspension,      worked to ensure the successful implementation of the CHIPRA provisions.
or revocation of permits. The
effective date of the Act was April 1, 2009; permit actions went into effect on February 4, 2009.
In FY 2009, additional revenue collections resulting from provisions of CHIPRA amounted to $5.9
billion—$4.7 billion in tobacco excise taxes and a record $1.2 billion in FST collections. This figure will
grow in FY 2010, as that will mark the first full year of collections at the new tax rate. The Act also requires
TTB to conduct a study on the estimated Federal revenue loss due to tobacco diversion. The findings and
recommendations from the study have been submitted to Congress.
Implementing the statutory provisions of CHIPRA required the coordinated effort of nearly every TTB
office. The Regulations and Rulings Division completed several rulemaking documents to implement the



                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                    7
                                TTB 2009 Annual Report


mandate, which required the resolution of key policy issues, and did so in less than two months following
the enactment of the law. In preparation for the tax increase and subsequent FST, the National Revenue
Center (NRC) took numerous proactive steps to ready its databases and operations and inform industry of
the new requirements.
NRC program staff worked with the IT office to update the integrated tax and permit database to reflect
the new permit category and other statutory changes. The NRC also amended the necessary tax and
operational forms to provide for the new requirements, and published guidance on TTB.gov to assist
industry in understanding and complying with Federal regulations. In addition, TTB mailed more than
475,000 information packets to industry members, including tobacco wholesalers and retail locations, that
were liable for the FST. The NRC also fielded almost 50,000 telephone inquiries regarding the tax rate
increase and new permit requirements.
In administering the FST, TTB devised an innovative plan to ensure collections from tobacco wholesalers
and retailers, segments of the industry not regulated by TTB. First, the Bureau worked closely with various
State agencies, as well as a number of the largest tobacco manufacturers and distributors, to identify
industry members who were most likely to have substantial quantities of tobacco products in inventory.
TTB developed an audit program to verify that proper inventories were taken of the tobacco product held
by wholesalers and retailers. TTB auditors and investigators conducted site visits at the largest FST filers,
and completed more than 200 visits to small and mid-size tobacco manufacturers, importers, wholesalers,
and retail locations. TTB also used statistical sampling and intelligence data to help identify various
industry members for future audits to verify that proper payment of FST was made.
For FY 2010, TTB plans to place significant emphasis on post audits of those liable for FST. TTB auditors
conduct post audits of FST returns and excise tax returns after the tax has been paid to verify that a proper
inventory was taken and that the tax payment accurately represents the industry member’s liability. TTB is
analyzing collected data to identify the largest wholesalers and manufacturers for post audit. Further, our
analysts are using automated data analysis techniques to target non-filers for audit, and analyzing sales
data to pinpoint unusual patterns that may indicate a business stockpiled product prior to the effective
date of the new tax rates.
This work was essential in TTB’s successful FST education and enforcement strategy, and the Bureau will
apply the gathered information to update its audit plan in the coming fiscal year.




                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                  8
                                TTB 2009 Annual Report


Rave Reviews for Second TTB Expo
Word of the TTB Expo must have spread
since the Bureau held its seminal event
last year, as more than 700 attendees from
across the regulated industries descended
on Northern Kentucky for three days
of compliance education sessions and
networking.
With attendance up more than 20 percent
over last year, TTB was prepared with
expanded offerings, including 78 courses
on a broad swath of topics, an electronic
Government demonstration room, and an         TTB Administrator John Manfreda and members of the TTB
exhibition hall with booths geared toward     executive staff during the keynote address of TTB Expo 2009.
the major services TTB and its partners
provide.
Holding the Expo grants TTB employees a unique opportunity to interact with industry members in a
more novel role—that of an educator. The event theme,“Compliance through Education,” is built into
the mission of the Bureau and represents a fundamental strategy in affecting that mission. As experience
indicates, ensuring continued high rates of voluntary compliance is accomplished in large part by giving
those TTB regulates the know-how to meet the rigorous reporting and filing requirements associated with
alcohol, tobacco, firearms, and ammunition.
“Almost one-third of the TTB workforce is here today because we believe that our duty as your regulator
is to provide you with answers and support in meeting all compliance requirements,” John Manfreda, TTB
Administrator, said in his keynote address at the opening of TTB Expo 2009.
While TTB has held targeted seminars in the past for specific segments of the regulated industries, the
                                                               Bureau elected in 2008 to begin hosting
                                                               a single, comprehensive conference to
                                                               conserve resources and to furnish a platform
                                                               for conveying broader TTB messages, such as
                                                               the benefits of e-filing reports, returns, and
                                                               applications.
                                                               This year, TTB went a step further toward
                                                               exercising prudence in managing our
                                                               resources. The Bureau published session
                                                               presentations in advance online at TTB.
                                                               gov and requested that attendees judge
TTB staff demonstrating the COLAs Online system to members     whether to print and bring copies of the
of the alcohol beverage industry in the Expo’s eGov Hall.



                        Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   9
                                 TTB 2009 Annual Report


presentations to the event. Staff witnessed attendees take our lead in conserving paper, with many
opting to download class presentations to their personal laptops and scroll through the slides along with
presenters.
These cost saving measures did not
detract from the overall quality of the
event, which grew substantially in
variety and scope. In the new eGov
Hall, the curious got a sneak peek at our
upcoming custom application, Formulas
Online, which will enable members
of the alcohol beverage, specially
denatured alcohol, and nonbeverage
(drawback) industries to file their
formulas electronically for processing
and approval. Formulas Online is          Staff from the TTB National Revenue Center answering questions
designed to be fully compatible with      for an Expo attendee in the exhibition hall.
our electronic label application system,
COLAs Online, resulting in a streamlined application process for members of the alcohol industry so that
they can quickly introduce new products to the marketplace.
The eGov Hall also gave industry members who haven’t yet made the leap to e-filing—whether for label
applications on COLAs Online or for tax returns and reports through Pay.gov—a chance to experience
hands-on demos and receive advice from our specialists. Those who file claims for drawback of tax on
alcohol used for nonbeverage purposes could also sit for a personal tour of the online Drawback Tutorial
delivered by the chief of our Nonbeverage Products Laboratory.
Offering multiple opportunities for personal interaction was important to event organizers, which is why
TTB also offered a private meeting room to industry. Those with specific questions or more complex
compliance issues could schedule one-on-one time with TTB specialists to discuss options for potential
resolution.
Because TTB is not the only government entity with responsibilities related to the regulation and taxation
of alcohol, tobacco, firearms, and ammunition, event organizers invited speakers and exhibitors from State
alcohol beverage control boards and other Federal agencies, such as U.S. Customs and Border Protection,
the U.S. Department of Agriculture, and the Food and Drug Administration. Having these agencies on
hand meant that the right person was available to answer any industry question related to conducting
business within the regulated commodities.
Just from anecdotal feedback passed on by attendees, TTB knows that its approach to gaining voluntary
compliance through education has substantial merit. Responses to the participant surveys also indicate
that 92 percent of those in attendance rated their overall satisfaction as a 4 or 5 on a 5-point scale. With
continued interest from the industry, the Bureau expects to hold future Expos to build on the success of
this signature event.




                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 10
                                TTB 2009 Annual Report


Permits Online Development Underway
All alcohol and tobacco businesses
wishing to operate above the
retail level must submit to TTB
an application for a permit and
multiple documents supporting their
qualification– all of which flow to
the 56 staff members of the NRC
Application Services Branch. The NRC
currently processes 23 categories of
applications that are used to authorize
19 different types of permits and
registrations. In FY 2009, NRC staff
screened approximately 5,500 paper-      Members of the team developing the Permits Online system, which
based original application packets and will enable industry members to file for new or amended permits
nearly 17,800 amendments to existing online at TTB.gov.
applications. With application filings
expected to continue their 17 percent average annual growth rate for the foreseeable future, TTB has made
automation and efficiency in permit processing one of its top priorities.
“We are a small agency that prides itself on efficiency and uses every opportunity it can to maximize
the assets we have so that we can use our resources for enforcement purposes,” said Mary Ryan, TTB’s
Assistant Administrator for Field Operations.“Although application packets can be downloaded and
printed from our Web site, the applicants need to complete and mail the packets for manual processing
– at great cost in time and resources. Switching to a secure electronic submission process will save both
applicants and TTB significant time and money, and will help ensure industry compliance with Federal
regulations well into the future.”
In FY 2009, TTB initiated the Permits Online development effort to use a Web-based technology to gain
efficiencies in the issuance of permits to qualified applicants. TTB determined that a commercial product
could provide the required capability faster and at a cost lower than a typical TTB custom application
development. The Bureau has acquired the product and begun requirements gathering for the system,
and anticipates an initial release in FY 2010 with full functionality in FY 2011.
This system is critical to maintaining turnaround times for permit applications and meeting service
standards in light of TTB’s shrinking workforce and increasing workload. In just five years, the number
of applications for original and amended permits has grown 25 percent. Over the same period, the TTB
authorized staffing level contracted by nearly 4 percent.
When completed, the new system will provide secure electronic submission capability for applications and
online help to guide industry users through the submission process. The Permits Online system also will
offer workflow functionality to facilitate online routing, review, and correction of submitted information.
The system will also provide a reporting and tracking capability so both TTB staff and applicants can
monitor the status of an application.


                        Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                  11
                                TTB 2009 Annual Report


In terms of gaining efficiencies in internal business operations, Permits Online will mark a huge step
forward in the Bureau’s strategic automation efforts. By FY 2014, TTB expects to realize a return on
investment of 157 percent, and total cost savings of approximately $7.2 million for permit processing.
The system will also bolster improvement plans for several of TTB’s primary performance indicators,
including voluntary compliance rates and average processing times for original permit applications. With
the increased clarity and consistency in the application process and required forms, TTB expects to see
an increase in the voluntary compliance rate. The streamlined process should also result in a drop in the
average processing time by an estimated 30 days. Customer satisfaction is also predicted to improve, as an
electronic filing option for permit applications is something requested by 95 percent of surveyed industry
members. Permits Online will meet this expectation, and provide around the clock access to application
files and online help features.


Alcohol Beverage Safety and Verification Program
Upholding our responsibility to protect consumers of alcohol beverages from harmful products involves
the cooperation of several TTB offices. The coordination of these activities occurs under the Bureau’s
Alcohol Beverage Safety and Verification Program, which encompasses the TTB-wide strategy for
protecting consumers from hazards or safety issues associated with adulterated or contaminated alcohol
beverages. This program also works to prevent consumer confusion or deception arising from mislabeled
alcohol beverages.
This program applies TTB resources to alcohol beverage products that are offered in the marketplace, and
augments mission work that relates to pre-marketplace evaluations, such as the pre-market formula and
Certificate of Label Approval (COLA) review processes. By monitoring products on both a pre-market
and post-market basis, TTB seeks to validate that alcohol beverages for sale to consumers are safe and
manufactured in accordance with good manufacturing processes using wholesome and safe ingredients.
The Alcohol Beverage Safety and Verification Program incorporates ongoing TTB efforts in several
consumer protection areas. Formalized in FY 2009, this comprehensive program establishes a process for
identification, verification, analyses, notification, and response to potential consumer health hazards that
may include product recalls as issues of non-compliance are found. TTB uses the information generated
by this program to correct deficiencies in the marketplace and, when called for, to share intelligence and
coordinate with the Food and Drug Administration for health hazard evaluations of flagged products.
TTB also shares information gleaned from this program with other Federal, State, and foreign agencies as
necessary.
In our review of products prior to their entrance to the marketplace, TTB conducts pre-market product
evaluations, which focus on ensuring the absence of prohibited ingredients and verifying that limited
ingredients are used within prescribed limitations or restrictions. TTB also validates that products are
properly and accurately labeled to enable consumers to make informed buying decisions. This involves
reviewing label applications on a pre-market basis for conformity with Federal regulations.




                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 12
                                 TTB 2009 Annual Report


Our post-market product review process
involves the work of auditors, chemists,
analysts, and investigators. One
component, the Bureau’s Alcohol Beverage
Sampling Program (ABSP), uses probability
sampling of products available in retail
stores to produce accurate estimates of
compliance across the industry to help
TTB more effectively target non-compliant
industry members. In this second year of
the program, the TTB Laboratory analyzed
206 malt beverage samples and found 22 to
be non-compliant. Specialists in the Market
Compliance Office are in the process of
                                                 TTB chemists in the Scientific Services Division test alcohol
taking corrective actions with the concerned
                                                 beverage samples to ensure they are free from contamination or
industry members.
                                                 adulteration and comply with Federal standards.
The post-market product reviews conducted
under this program also include field
and laboratory work related to consumer complaints and referrals. Additionally, TTB chemists analyze
collected samples of spirits, wine, and malt beverages for the presence of unauthorized pesticide
residues and toxic metals. This program also incorporates product integrity investigations that ensure
that domestic and imported alcohol beverages from a permittee are produced, bottled, and labeled in
compliance with the provisions of the FAA Act and Internal Revenue Code.
The activities performed under the Alcohol Beverage Safety and Verification Program enable TTB to
be both proactive and responsive to incidents concerning adulterated, contaminated, or potentially
contaminated alcohol beverages. By establishing the formal procedures and interagency strategies
necessary to expeditiously respond to product integrity issues, the Bureau can better fulfill its responsibility
to protect consumers from hazards associated with adulterated or contaminated beverages.


Third TTB Laboratory Achieves International Accreditation
The Tobacco Laboratory (TL) was established in January 2008 as a distinct branch of the Scientific Services
Division (SSD) to ensure the Bureau addresses the growing needs for technical support in regulating
existing and emerging tobacco products. In its mission statement, the TL commits to contributing to
TTB’s overall mission by producing accurate, objective, and authoritative information on tobacco products
through the development of new capabilities and the effective application of novel technologies.
Since its establishment, the TL has made significant progress in expanding its expertise by staying abreast
of the advances in tobacco science as well as the changes in tobacco manufacturing processes. Some
of its recent work involved the identification of unique chemical markers in various tobacco products.
This research was used to establish objective criteria for distinguishing between product classes for




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   13
                                 TTB 2009 Annual Report


manufactured tobacco products. TTB will use the
objective criteria in the publication of a notice
of proposed rulemaking describing the Bureau’s
position on little cigars and cigarette products.
Currently, the laboratory is developing various
analytical methods and protocols for the analyses
of counterfeit cigarettes in support of the Bureau’s
efforts to thwart tax evasion and the illicit tobacco
trade.   
The technical support the TL provides to TTB offices
in the enforcement and regulation of tobacco
products is especially critical given the increase
in the Federal excise tax on tobacco, as evidence
                                                      The TTB Tobacco Laboratory uses state of the art
shows a direct link between the potential for
                                                      analytical techniques to identify the chemical
diversion and the tax rate. Hence, it was imperative
                                                      compounds present in various tobacco products.
for the TL to attain accreditation for its laboratory
techniques by the International Organization
for Standardization (ISO). Achieving third party recognition of the TL’s quality results and procedures
promotes acknowledgement and respect for its technical competence by the regulated industry and other
agencies in the U.S. and abroad.
The ISO accreditation process involves an independent examination of the laboratory methods used for
tax classification, the quality of the TL’s results, and the standard operating procedures in place to ensure
all meet or exceed ISO standards. The TL achieved ISO 17025 accreditation in September 2009 from the
American Association for Laboratory Accreditation (A2LA), an accreditation body in the United States.
Achieving ISO accreditation is a lengthy and painstaking process. During this fiscal year, the TL had to
develop and validate analytical methods, and document every method, protocol, and process in use in the
laboratory. Several documents and processes required updating to meet these requirements. TL chemists
also had to demonstrate proficiency in each of the methods used for analysis that fall within the scope of
the accreditation.
The TL is the third SSD laboratory to achieve ISO accreditation; the Beverage Alcohol Laboratory (BAL)
and the Compliance Laboratory (CL) met the requirements for ISO 17025 accreditation in the fall of
2007. In FY 2009, TTB also completed its bi-annual A2LA assessment of the BAL and CL and maintained
accreditation for both laboratories.
Now that accreditation has been attained for the TL, the SSD’s next challenge is to maintain its
accreditation through regular internal audits of all three laboratories and frequent training of chemists on
ISO requirements. The laboratories will also be working to expand the scope of their accreditation beyond
the routine regulatory methods to include other methods.




                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 14
                                TTB 2009 Annual Report


Putting User Feedback into Practice on TTB.gov
The TTB Web Team made eye-catching improvements to TTB.gov in June 2009 using visitor feedback in
order to make the Web site easier and more satisfying to use for those who rely on the information TTB
provides online.
The TTB.gov Web site is critical to the Bureau’s mission of collecting the revenue and protecting the public. 
Industry members and the public look to TTB.gov as a primary resource where they can find the tools they
need to make informed choices. For those regulated by TTB, the Internet site provides fast and easy access
to resources essential to establishing good business practices and meeting compliance requirements,
including forms, guidelines, regulations,
and statistics.
Based on customer satisfaction with
several criteria—including content,
navigation, functionality, look and feel,
site performance, and search—the
Web Team, which is made up of TTB’s
Knowledge Management Staff and
contractor support, focused on enhancing
the aspects of the TTB.gov site that
received the lowest satisfaction scores.
The redesign included the addition of         The TTB Web Team meeting to discuss the latest analytical and
color and attractive icons that guide         survey feedback data for the TTB.gov Web site.
users to the top information, as well
as the reorganization of the most
popular information into easily discernable sections.  TTB.gov’s new drop-down menus from the main
commodity tabs and the updated “How Do I?” sections in the subpages are now task-oriented and written
in plain language, which allows visitors to quickly scan a page and select direct links to information and
instructions.
The “refreshed” look and feel of TTB.gov was guided by user feedback gathered from Web analytics
resources, including the American Customer Satisfaction Index (ACSI), a Web pop-up survey that allows
users to rate their satisfaction with the TTB.gov site.  To complement the voice-of-the-customer feedback,
the Web Team also gathered comments from focus groups with representatives from the various industries
that TTB serves.
As a result, the Federal Consulting Group recognized TTB in April 2009, as one of three Federal agencies
that has shown the largest increase in overall customer satisfaction scores since implementing the ACSI
survey. The Web satisfaction of TTB.gov visitors has climbed more than 11 points since the 2007 ACSI
deployment; an improvement of 4 to 5 points is considered excellent performance. Improvement efforts
will continue to rely on analytics data and best practices displayed by highly regarded Federal Web sites.




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   15
                                 TTB 2009 Annual Report


TTB Initiates First Study of Federal Tax Loss from Tobacco Smuggling
The diversion of alcohol beverages and tobacco products outside the legal chains of commerce threatens
global security in terms of public safety and financial stability. As the U.S. agency charged with collecting
the Federal taxes owed on these products, TTB commenced studies in FY 2009 to estimate the extent
of Federal excise tax revenue lost due to illicit trade in both tobacco and alcohol. Once completed, the
information will provide a vital component to TTB’s diversion program. By determining the amount of
overall Federal excise tax loss due to illicit trade, TTB can more effectively target resources to fighting tax
fraud and diversion.
The importance of these studies was
magnified when the Children’s Health
Insurance Program Reauthorization Act
of 2009 (Public Law 111-3) was passed on
February 4, 2009. CHIPRA mandated the
Department of the Treasury to conduct
a study concerning the magnitude of
tobacco smuggling in the United States,
to include the loss of Federal tax receipts
and the role of imported tobacco products
involved in illicit trade. The study is also
to provide recommendations to Congress
for combating illicit tobacco smuggling.        The TTB team in the Trade Analysis and Enforcement Division
                                                overseeing the tobacco smuggling study.
This Federal tax loss study is the first of its
kind; there were no previously established
studies or methodologies to evaluate the extent of Federal tax loss due to tobacco diversion in the United
States. TTB is modeling its study after a gap analysis conducted in Great Britain, which involves evaluating
total consumption versus taxes paid to arrive at a net revenue loss. The study and TTB’s recommendations
have been provided to Congress.


International Agreements Progress in 2009
Keeping U.S. businesses economically competitive in the global marketplace requires advocacy and
intercession on the part of Federal regulators. TTB’s International Trade Division (ITD) works to address
this interest of the Department of the Treasury by promoting improved economic opportunity and growth
for domestic businesses that manufacture or trade alcohol products abroad. At the same time, revenue
collecting agencies like TTB must ensure the protection of the revenue through its efforts to combat
alcohol and tobacco diversion.
In these respects, ITD made significant progress in negotiating several international agreements and
working with TTB’s foreign counterparts in FY 2009.  The Memoranda of Understanding (MOU)
completed or in progress facilitate trade by increasing mutual understanding of each country’s alcohol
and tobacco production requirements, labeling and licensing standards, and revenue protection measures.



                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 16
                                 TTB 2009 Annual Report


These agreements also provide a formal process whereby each party can exchange information that has
the potential to impact trade, regulatory compliance, and product safety, or enhance protection of the
revenue.
In June 2009, TTB signed an MOU with SAMTREST, the Department of Wine and Vine of the Ministry of
Agriculture for the Republic of Georgia.  This MOU is TTB’s second with a counterpart foreign regulatory
agency, following the MOU with China’s General Administration for Quality Supervision, Inspection
and Quarantine (AQSIQ), signed in December 2007.  TTB has already begun work with SAMTREST
to facilitate improvements in their
regulation of wine so that U.S. labeling
and product standards are assured for
products from Georgia that enter the U.S.
Under the MOU, we also have initiated
a collaboration with the U.S. Agency
for International Development that will
target specific technical and scientific
improvements to Georgian capacity, with
the TTB laboratories playing a key role
in technology and knowledge sharing
for analytical methods and regulatory
processes.                                   TTB officials meeting with the Italian Minister of Agriculture in
TTB has been developing relationships         Washington, D.C. to discuss international trade issues.
with four federal agencies in Brazil,
all of which carry out work related to TTB’s mission.  There are currently MOUs under review by the
Ministry of Agriculture, Livestock, and Food Supply (MAPA) and by the National Institute of Metrology,
Standardization and Industrial Quality (INMETRO).  ITD is also developing MOUs with the Federal
Revenue Secretariat of Brazil’s Ministry of Finance and the National Health Surveillance Agency of Brazil’s
Ministry of Health.  In August 2009, these agencies and their federal police visited TTB headquarters to
exchange information and pursue these agreements formally. These agreements will support and enhance
our international efforts with alcohol beverage standards and safety, processes and methods for alcohol
beverage enforcement, procedures and methods for tobacco smuggling and diversion investigations, and
collaboration on scientific and technical projects which support enforcement and ensure compliance.
TTB continued its negotiations for an MOU with Italy’s Guardia di Finanza (GdF), with whom TTB has
been collaborating in regard to certain wine trade issues.  This MOU is in the final stages of review within
the government of Italy, and TTB expects to sign the MOU in FY 2010.  The agreement with GdF will also
serve to advance our interests in the area of tobacco diversion and smuggling. Further, in the course of
these negotiations, TTB developed a prospect for another MOU with an Italian counterpart agency. The
Bureau is consequently preparing an agreement that proposes a collaboration with the Istituto Agrario di
San Michele all-Adige (IASMA). The agreement with IASMA will advance our enforcement opportunities
with wine varietals and labeling issues.




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   17
                                TTB 2009 Annual Report


Finally, in March 2009, TTB proposed a draft MOU with France’s General Directorate for Competition
Policy, Consumer Affairs, and Fraud Control.  This MOU comes at an opportune time, as the French are
proposing major changes to their systems of control for wine.
Work on these agreements will continue into the next fiscal year, with the goal of ensuring the success
of international trade by representing U.S. industry in negotiations related to the sale and marketing of
alcohol and tobacco products abroad.




    TTB Lab Finds Evidence of Herbal Additives
    in a 5,000-Year-Old Wine Jar
    Is there a connection between the TTB and winemaking in
    ancient Egypt? Apparently, the answer is: yes. A collaboration
    between the TTB Beverage Alcohol Laboratory (BAL) and
    a leading expert on ancient wines from the University of
    Pennsylvania Museum helped to reveal the chemistry of these
    wines. The study findings were published in the Proceedings of
    the National Academy of Science in May 2009.
    Although the wild grape (Vitis vinifera sylvestris) never grew in
    ancient Egypt, a royal winemaking industry had been established        Interior of the wine jar found
    in the Nile Delta by 3000 B.C. as a result of transplanting the        in U-j tomb in Egypt (ca. 3150
    domesticated vine from the Eastern Mediterranean. New light was BC). The visible accumulation of
    shed on the “prehistory” of this royal industry by the discovery of    wine residue was sampled
    some 700 wine jars in Abydos from Tomb U-j, dated to about 3150 for analysis.
    B. C. More than 4,000 liters of resinated wine in these jars, which
    belonged to one of the first kings of ancient Egypt, Scorpion I, could be shown to have been made
    and exported from the Jordan Valley and environs 600 km away.
    In order to confirm the various components of the wine residue found in these vessels, the BAL
    conducted a series of analytical experiments to identify compounds that serve as markers for
    wine, such as tartaric acid. A number of compounds identified in the residues of these vessels
    confirmed the presence of grape wine and, for the first time, suggested that herbs, including mint
    and rosemary as well as tree resins, were added to the ancient wine.
    Although many ancient texts attest to the importance of the herbal additives in the ancient
    Egyptian and Roman cuisine and pharmacopeia, no such analytical data existed to support these
    claims. Tree resins such as pine tree, turpentine, and frankincense were known to be widely used
    in antiquity and added to wine for their antimicrobial, medicinal, and flavoring properties. The
    experiments conducted at BAL clearly indicate that resinated herbal wines were part of ancient
    Egyptian pharmacopoeia throughout the historical period.




                        Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                18
                                                                            TTB 2009 Annual Report


Performance Summary
Collect the Revenue
TTB met all of its performance measures under the Collect the Revenue activity. A detailed summary of
TTB performance is discussed in Part II of this report, Program Performance Results.

Investments in the Collect the Revenue mission resulted in several accomplishments during
FY 2009:

•	 TTB collected $20.6 billion in excise taxes and other revenues from approximately 6,8001 taxpayers in
   the alcohol, tobacco, firearms, and ammunition industries. The recent rise in excise tax collections for
   tobacco resulted in a return on investment for the Collect the Revenue program of $427 for every $1
   expended on collection activities. The return on TTB tax collection activities increased by 36 percent
   over FY 2008.


                                                                                                                           The passage of CHIPRA reversed the
                                                  Tax Collections by Commodity
                                                                                                                           trend of declining tobacco revenues,
                                         In Millions of Dollars
                                12,000                                                                                     effectively doubling tobacco excise tax
                                10,000                                                                                     collections in FY 2009. Revenue for
                  Collections




                                 8,000
                                 6,000
                                                                                                                           Firearms and Ammunition Excise Tax
                                 4,000                                                                                     (FAET) also grew by 45 percent over
                                 2,000
                                                                                                                           the prior fiscal year, the largest single-
                                    0
                                            2004          2005          2006          2007        2008          2009       year margin in the history of this
                                                                              Fiscal Year
                                                                                                                           agency collecting FAET.
                                                                  Alcohol      Tobacco       Firearms




                                                                                                                           Of the TTB permit holders, only a
                                    Industry Members Who Filed and Paid Taxes
                                                                                                                           small percentage file and pay taxes
                  8,000
                                                                                                        6,546      6,777   in a given fiscal year. This is due in
                  7,000
                                                                                         5,837
                                                         5,227              5,484                                          large part to the fact that importers
      Taxpayers




                  6,000                  4,870
                  5,000
                  4,000                                                                                                    and wholesalers—two of the largest
                  3,000
                  2,000
                                                                                                                           sectors of the regulated industries—do
                  1,000                                                                                                    not pay tax to TTB. Still, the number
                      0
                                          2004           2005               2006         2007           2008       2009    of taxpayers has risen 39 percent since
                                                                        Fiscal Year
                                                                                                                           FY 2004.




1
    About 10,100 TTB permittees were subject to file a tax return and pay excise taxes this fiscal year; however, many
    operations do not result in the taxable removal of product from bonded premises. Therefore, in FY 2009, about
    6,800 permittees had operations that required them to file a tax return and pay excise tax.




                                                          Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                                                    19
                                 TTB 2009 Annual Report

•	 TTB expanded its e-filing capability to allow all excise taxpayers to file and pay taxes, and file monthly
   operational reports, electronically through the Pay.gov system. The total number of Pay.gov registrants
   increased by 36 percent in FY 2009, bringing the total to over 4,900.

•	 In measuring voluntary compliance, TTB reported a compliance rate of 94 percent among its largest
   taxpayers in filing timely tax payments. TTB’s educational outreach efforts at industry seminars and
   premises, and through online applications, proved successful in maintaining the compliance rate
   achieved in the prior fiscal year.

•	 TTB processed cover-over payments of $481 million to Puerto Rico and the Virgin Islands, an increase of
   26 percent compared to the prior year. Federal excise taxes collected on rum produced in Puerto Rico
   and the Virgin Islands and subsequently imported into the United States are “covered over” (or paid
   into) the treasuries of Puerto Rico and the Virgin Islands.

•	 TTB processed $269 million in drawback claims, about 5 percent less in refunded tax money than in
   FY 2008. Under current law, persons who use nonbeverage alcohol in the manufacture of medicines,
   food products, flavors, extracts, or perfume and other non-potable products may be eligible to claim
   drawback of excise taxes paid on distilled spirits used in their products. To assess drawback claims and
   review specially denatured alcohol formulas, the TTB Laboratory analyzed 12,600 samples in FY 2009.

•	 TTB also analyzes beverage alcohol and tobacco product samples to assign or verify a tax classification.
   For this purpose, TTB analyzed 1,021 beverage alcohol samples associated with pre-import evaluation,
   the 5010 tax credit, and enforcement activities, as compared to 1,302 samples in FY 2008. Pre-import
   evaluations also test products for limited or prohibited ingredients. Another 265 tobacco samples were
   analyzed to ensure products were appropriately classified for tax purposes. Though the number of
   tobacco samples tested was down significantly compared to FY 2008, the workload is comparable to
   previous fiscal years.

•	 In FY 2009, TTB completed 171 audits, down slightly from 179 audits in 2008, and completed audit
   fieldwork on 94 percent of its revised audit plan. TTB audits resulted in additional collections of
   $8 million in tax liabilities, penalties, and interest, a drop of 56 percent from the prior year but
   consistent with additional collections from previous years. Recent audit findings demonstrate the
   success of TTB’s audit program. Repeat audits of industry members with significant past violations
   and additional liabilities show they are now operating in compliance with Federal regulations. TTB
   initiated approximately 1,306 investigations, including 397 revenue-related investigations (38 percent
   more than 2008). Many of these investigations involved small producers, tobacco importers, and
   claims verification. This work resulted in additional collections of more than $613,000. TTB also
   closed 26 investigations and audits by Offers-in-Compromise, or settlement agreements, for a total of
   approximately $3.6 million in additional collections. In total, these closed cases resulted in additional
   revenue of more than $12.2 million.

•	 TTB has criminal enforcement authority over the commodities it taxes and regulates, but is heavily
   dependent on the availability of other agencies to supply law enforcement resources to pursue criminal
   tax cases. Tax fraud in these industries, whether through unlawful product diversion or other means,
   poses a high risk to Federal revenue collection. Diversion includes tax evasion, theft, distribution of
   counterfeit products, and distribution in the United States of products marked for export or for use


                         Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                 20
                                         TTB 2009 Annual Report


  outside the U.S. Prior to the tobacco tax rate increase, available estimates for lost excise tax revenue
  related to tobacco diversion were as high as $1 billion annually. Without additional resources, TTB is
  limited in its ability to address this significant tax collection issue, although specific cases conducted in
  partnership with other law enforcement agencies have proven successful. During FY 2009, TTB carried
  out 46 joint investigations, including 17 with State agencies, resulting in the seizure of more than 33,500
  cases of alcohol and more than 201,000 cartons of cigarettes having an estimated value of $1.6 million.
  TTB closed 42 investigations involving diversion of products having an estimated tax liability of more
  than $9.7 million. As a result of these activities, TTB assessed or collected roughly $7.6 million in taxes
  owed.

•	 TTB continued using the U.S. Customs and Border Protection’s (CBP) International Trade Data System
   in FY 2009 to identify illicit alcohol and tobacco importers. In FY 2009, TTB determined that 206
   entities, or 15 percent of tobacco importers, were importing illegally, a 7 percent decline compared to FY
   2008. Importations from new importers identified as illegally operating totaled more than 400,000 kg of
   tobacco products, which equates to about $20 million in Federal excise tax. Though the products were
   illegally imported to the U.S. without the required permits, the excise tax on the products was paid to
   CBP. All of the entities ceased operations or came into compliance with Federal permit requirements
   upon receiving notification from TTB.

•	 TTB participated in several information-sharing conferences on tobacco diversion matters to
   enhance its diversion program as well as build coalitions with other agencies. TTB held a regional
   conference in Dallas, Texas, with representatives from western States and other Federal agencies to
   share information on regulatory and enforcement efforts to target tobacco trafficking. TTB also co-
   sponsored the U.S./Canada Tobacco Diversion Conference in September 2009 to share information and
   enforcement practices for combating illegal diversion with domestic and international regulatory and
   law enforcement partners. Further, TTB served as the primary U.S. representative at the World Health
   Organization-sponsored negotiations to develop an international protocol on combating the illicit
   tobacco trade under the Framework Convention on Tobacco Control, International Negotiating Body.



                                                                                The total number of active TTB permit
                              Active TTB Permit Holders
                                                                                holders in the alcohol, tobacco, and
         50,000
                                                                                firearms industries has increased 29
         40,000                                                                 percent since FY 2004. Annual increases
         30,000                                                                 range between 4 to 6 percent. Alcohol
         20,000
                                                                                and firearms permittees have displayed a
         10,000
              0                                                                 steady rising trend, while the number of
                    FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009
         Alcohol    36,625    38,247    40,480    42,483    45,018    47,818    tobacco permittees continued a negative
         Tobacco     1,360     1,167     980       931       883       886      trend in FY 2009. Active tobacco permit
         Firearms    508       622       674       724       784       855
                                                                                holders have fallen by 35 percent
                                                                                in 6 years.




                               Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                         21
                                              TTB 2009 Annual Report


Protect the Public
TTB met all of its performance measures under the Protect the Public activity. A detailed summary of
TTB performance is discussed in Part II of this report, Program Performance Results.
Investments in the Protect the Public mission resulted in several achievements during FY 2009:

•	 TTB approved 99,336 of the 124,965 COLA applications received; the remaining 25,629, or 21 percent,
   were either rejected, returned for correction, withdrawn, expired, or surrendered. COLAs received
   decreased by 6 percent from 2008, due in part to the economic downturn. Another cause of the decline
   relates to the increase in electronic filing rates. Unlike paper filing, electronically filed applications may
   be returned for correction without the assignment of a new identification number on the application;
   incorrect paper applications that are resubmitted are counted as a new application because the
   processing by TTB starts anew.

•	 Of the COLA applications received, 74 percent were submitted through COLAs Online, the Bureau’s
   system for the electronic filing of label applications. TTB was successful in increasing the rate of e-filing
   by 12 percent over the previous fiscal year. The increase in online applications is due in large part to
   outreach efforts by TTB through educational workshops, improvements to online information, and one-
   on-one demonstrations to large paper filers.


                                                                                   Between fiscal years 2004 and 2008, the
             Certificate of Label Approval Applications                            Bureau experienced a 27 percent rise in the
     160,000                                                                       number of Certificate of Label Approval
     140,000
     120,000                                                                       (COLA) applications submitted by the alcohol
                                                                 50,404   32,963
     100,000
      80,000                         71,007
                                                   61,315
                                                                                   beverage industry and processed by TTB. In
      60,000    89,355   79,232
      40,000                                                     83,024   92,003   FY 2009, the growth trend did not continue,
                                                   63,810
      20,000                         42,759
           0
               15,842    27,082                                                    with a 6 percent decline in applications. The
                2004      2005        2006          2007          2008     2009
                                                                                   decline is due in part to economic conditions.
                                   Fiscal Year
                                                                                   The rise in electronic label application filing
                         Paper Filed COLAs    E-filed COLAs
                                                                                   also contributed to the decrease in processed
                                                                                   applications, as paper applications resubmitted
            Rate of Electronic Label Application Filing                            by the industry member after corrections may
     100%                                                                          be included in the total count multiple times.
      90%                                                                 26%
      80%                                                        38%
      70%                           62%
                                                   49%                             The Bureau’s education efforts and ongoing
      60%                75%
               85%
      50%                                                                          system enhancements have resulted in the
      40%                                                                 74%
      30%
      20%                           38%
                                                   51%
                                                                 62%
                                                                                   usage rate for COLAs Online increasing from
      10%                25%
       0%
               15%                                                                 15 percent in FY 2004 to 74 percent
               2004      2005       2006           2007          2008     2009
                                   Fiscal Year                                     in FY 2009.
                         Paper Filed COLAs       E-filed COLAs




                                  Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                          22
                                      TTB 2009 Annual Report


•	 TTB processed about 5,500 original and 17,800 amended permits, or approximately 4 percent and 9
   percent more than in FY 2008, respectively. TTB also issued more than 5,800 pieces of correspondence
   related to permit issues, an increase of 14 percent over FY 2008. In FY 2009, TTB processed original
   applications in an average of 64 days, and issued nearly 4,700 original permits to qualified applicants.
   TTB issues original and amended permits to persons who are engaged in the alcohol and tobacco
   industries. As illicit activity in these industries has the potential to be highly lucrative, it is crucial
   that TTB prevent organized crime and terrorists from commencing operations through its permit
   investigation process. TTB initiated 380 application investigations to verify that the applicants were
   qualified and not prohibited from engaging in business activity. As a result of these investigations, 35
   applications were withdrawn or abandoned, 7 were recommended for denial, and 27 applications were
   approved after significant changes.  The remaining applications are still under investigation, or were
   approved with little or no corrections needed.

•	 As part of its active program to ensure the safety of alcohol beverages, TTB evaluates alcohol beverages
   for a number of potentially harmful adulterants or contaminants, including heavy metals, pesticide
   residues, and ochratoxins. In FY 2009, the TTB laboratories analyzed 1,343 product samples for
   compliance, consumer complaints, and the Alcohol Beverage Sampling Program. Lab analysis in these
   areas increased 13 percent over FY 2008. To strengthen the impact of its work in this area, TTB initiated
   collaborations with scientists from the Food Emergency Response Network, the Food and Drug
   Administration, the Centers for Disease Control and Prevention, and the National Institutes of Health.

•	 TTB opened more than 492 product integrity investigations in FY 2009. TTB investigators obtained 670
   samples of alcohol beverages, of which 192 were found by the TTB laboratory to be non-compliant with
   Federal requirements. TTB investigators also responded to 21 consumer complaints relating to alcohol
   beverages, none of which resulted in serious health risks to consumers.




                                                                     The number of original permit
                          Original Permits Issued by TTB             applications approved by TTB has grown
        100%                                                         17 percent in 6 years. In FY 2009, the
         98%
                                                                     total number of original permits issued
         96%
         94%
                                                                     increased by about 2 percent from the
         92%                                                         prior year. Firearms registrations declined
         90%
                                                                     slightly, while tobacco permits issued
         88%
                  2004       2005    2006    2007    2008    2009    increased over FY 2008. Tobacco permits
       Firearms    23         29      29      23      37      33
       Tobacco    250        275     216     248     185     197
                                                                     have generally trended downward since
       Alcohol    3,724      3,669   4,058   4,308   4,381   4,442   FY 2004.




                              Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                        23
                                               TTB 2009 Annual Report


Financial Summary
                                                                                               Alcohol and Tobacco Excise Tax Collections

Federal Excise Tax Collections                                                                12,000
                                                                                                       In Millions of Dollars


                                                                                              11,000

TTB collects excise taxes from the alcohol, tobacco,                                          10,000




                                                                                Collections
                                                                                               9,000
firearms, and ammunition industries. In addition,                                              8,000

the Bureau collects Special Occupational Tax (SOT)                                             7,000
                                                                                               6,000
from certain alcohol and tobacco businesses. During                                            5,000

FY 2009, TTB collected nearly $20.6 billion in taxes,




                                                                                                       98

                                                                                                             99

                                                                                                                   00

                                                                                                                         01

                                                                                                                                02

                                                                                                                                      03



                                                                                                                                                   05

                                                                                                                                                         06

                                                                                                                                                               07

                                                                                                                                                                     08

                                                                                                                                                                           09
                                                                                                                                            04
                                                                                                     19

                                                                                                            19

                                                                                                                  20

                                                                                                                        20

                                                                                                                              20

                                                                                                                                     20



                                                                                                                                                 20

                                                                                                                                                        20

                                                                                                                                                              20

                                                                                                                                                                    20

                                                                                                                                                                          20
                                                                                                                                           20
                                                                                                                                     Fiscal Year
interest, and other revenues.
                                                                                                                                Tobacco            Alcohol


Substantially all of the taxes collected by TTB are
remitted to the Department of the Treasury General
                                                                                     Firearms and Ammunition Excise Tax Collections
Fund. The firearms and ammunition excise taxes
                                                                                                     In Millions of Dollars
are an exception. This revenue is remitted to the                                              500

Fish and Wildlife Restoration Fund under provisions

                                                                               Collections
                                                                                               400


of the Pittman-Robertson Act of 1937. The U.S.                                                 300

                                                                                               200
Fish and Wildlife Service, which oversees the                                                  100

fund, apportions the money to State governments                                                      98

                                                                                                            99

                                                                                                                  00

                                                                                                                        01

                                                                                                                                02

                                                                                                                                      03



                                                                                                                                                   05

                                                                                                                                                         06

                                                                                                                                                               07

                                                                                                                                                                     08

                                                                                                                                                                           09
                                                                                                                                            04
                                                                                                 19

                                                                                                          19

                                                                                                                 20

                                                                                                                       20

                                                                                                                              20

                                                                                                                                     20



                                                                                                                                                 20

                                                                                                                                                        20

                                                                                                                                                              20

                                                                                                                                                                    20

                                                                                                                                                                          20
                                                                                                                                          20
for wildlife restoration and research, and hunter                                                                                  Fiscal Year


education programs.                                                                                                                       FAET



In February 2009, Congress passed the Children’s
                                                                             TTB’s tax collections for domestic alcohol beverages
Health Insurance Program Reauthorization Act.                                have shown a relatively stable rising trend for
This law imposed significantly increased tax rates on                        several years. The tax for imported alcohol beverages
tobacco products, swept into the statutory regime                            is collected by U.S. Customs and Border Protection.
requirements for permits and taxes for products                              After trending downward for five consecutive years,
which had not previously been taxed or regulated,                            tobacco tax revenues doubled in FY 2009 with the
                                                                             tax rate increases imposed on tobacco products by the
and levied a floor stocks tax (FST) on all tobacco                           CHIPRA legislation.
products held for sale as of April 1, 2009. TTB
                                                                             Retail sales analysis indicates that gun sales strongly
processed more than 133,000 receipts and collected                           correlate to changes in the political landscape in
$1.2 billion dollars of FST. Further, TTB collected an                       the United States. Specifically, gun sales rise when
additional $6 billion in tobacco taxes in FY 2009.                           citizens perceive an oncoming challenge to their
                                                                             Second Amendment right to bear arms. The upward
                                                                             trend for FAET collections reflects this phenomenon,
                                                                             as tax revenues have increased in relation to the
   FY 2009 Excise Tax Collections:                                           recent rise in gun sales.

   Alcohol......................................... $7,424,292,000
   Tobacco...................................... $11,548,504,000
   FAET................................................ $452,693,000
                                                                          Note: On July 2, 2005, legislation was enacted that
   SOT	....................................................... $272,000
                                                                          suspended SOT for most alcohol taxpayers, mainly retail
   FST	 . ........................................... $1,192,375,000      distributors. The law repealed SOT for all alcohol taxpayers
   Other...................................................... $970,000   effective July 1, 2008. However, the SOT relating to
   TOTAL....................................... .$20,619,106,000          tobacco permittees (manufacturers, importers, and export
                                                                          warehouses) remained intact.



                                    Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                            24
                                 TTB 2009 Annual Report


Refunds and Other Payments
During FY 2009, TTB issued $767,974,000 in refunds, cover-over payments, and drawback payments.


Cover-over Payments
Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on certain articles
produced in Puerto Rico and the Virgin Islands, and imported into the United States. In accordance
with 26 U.S.C. 7652, such taxes collected on rum imported into the U.S. are “covered over,” or paid into,
the treasuries of Puerto Rico and the Virgin Islands. During FY 2009, cover-over payments totaled $481
million.


Drawback Payments
Under current law, 26 U.S.C. 5134, Manufacturers of Nonbeverage Products (MNBPs) may be eligible to
claim a refund of tax paid on distilled spirits used in their products.
During FY 2009, drawback payments totaled $269 million. In the case of distilled spirits on which the tax
has been paid or determined, a drawback is allowed on each proof gallon at the rate of $1 less than the
rate at which the distilled spirits tax had been paid or determined. The refund is due upon the claimant
providing evidence that the distilled spirits on which the tax has been paid or determined is unfit for
beverage purposes, or was used in the manufacture of medicines, medicinal preparations, food products,
flavors, flavoring extracts, or perfume. The claimant must submit a product formula to the TTB laboratory
for analysis and approval of the nonbeverage claim.




             Alcohol and Tobacco Excise Tax Refunds.................... $17,791,000

             Cover-over Payments— Puerto Rico ........................ $472,695,000

             Cover-over Payments— Virgin Islands ......................... $8,624,000

             Drawbacks on MNBP Claims .................................. $268,612,000

             Interest and Other Payments ......................................... $252,000

             Total.....................................................................$767,974,000




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   25
                                      TTB 2009 Annual Report

FY 2009 Bureau Budget
Direct Appropriations
The FY 2009 TTB budget for salaries and expenses was $99,065,000. Of that amount, $2,000,000 was
set aside by Congress for information technology (IT) management. The funds for IT hardware refresh
remain available until September 30, 2010. The authorized full-time equivalent staffing level for direct
positions was 525.


Offsetting Collections and Reimbursable Accounts
During FY 2009, the Bureau realized offsetting collections in the amount of $3.1 million. Those funds
originated from multiple sources including recoveries from the operation of the cover over program and
other enforcement activities in Puerto Rico, and funding from the Treasury Department Executive Office
of Asset Forfeiture to cover critical investments in the TTB Tobacco Laboratory and diversion training for
TTB auditors and investigators. They also included funding from the Office of Technical Assistance, U.S.
Treasury Departmental Offices for technical support services.

Obligations and Expenditures


           FY09 Collect the Revenue                                   FY08 Collect the Revenue
                By Major Programs                                           By Major Programs



                                        FAET Program                                              FAET Program
                                             7%                                                        7%


                                          Outreach &                                                Outreach &
                 Alcohol &Tobacco                                             Alcohol &Tobacco
                                           Voluntary                                                 Voluntary
                     Program                                                      Program
                                          Compliance                                                Compliance
                       88%                 Program                                  88%              Program
                                              5%                                                        5%




           FY09 Protect the Public                                   FY08 Protect the Public
               By Major Programs                                        By Major Programs

                 Permits & Business      Trade
                     Assurance         Facilitation                         Permits & Business     Trade
                      Program           Program                             Assurance Program    Facilitation
                        41%                7%                                      38%            Program
                                                                                                     8%
                                         Outreach &
                  Advertising,
                                          Voluntary                         Advertising,
               Labeling & Product                                                                Outreach &
                                         Compliance                      Labeling & Product
                 Safety Program           Program                                                 Voluntary
                      46%                                                  Safety Program
                                             6%                                 49%              Compliance
                                                                                                  Program
                                                                                                     5%




The expenditures by TTB major programs remained relatively constant between FY 2008 and FY 2009.



                             Par t 1: M anagem e n t’s Di scu ssi o n & An a l ysi s
                                                     26
                                 TTB 2009 Annual Report


Audit of TTB’s FY 2009 Balance Sheet
The Department of the Treasury is one of 23 Federal agencies that are required by law to produce annual
audited financial statements. TTB’s financial activities are an integral part of the information reported on
by the Treasury Department.
For the purposes of TTB’s Annual Report, the Bureau includes an audited FY 2009 balance sheet,
and reports on the Bureau’s internal controls over financial reporting and compliance with laws and
regulations as they apply to the recording and reporting of FY 2009 balance sheet amounts. The Treasury
Office of the Inspector General (OIG) audit plan for FY 2010 will include an audit of the TTB FY 2010
financial statements.


Management Assurances
TTB provides reasonable assurance that the objectives of the Federal Managers’ Financial Integrity Act
have been achieved, and the Bureau is confident that it is in substantial compliance with the Federal
Financial Management Improvement Act. This overall determination is based on past and current
practices, an improved controls environment, scrutiny by external audit sources, internal evaluations, and
administrative and fiscal accounting system enhancements.
During FY 2009, TTB applied its custom risk management tools to its Revenue Accounting Section to
identify risks in the accounting and tracking of TTB’s annual Federal excise tax collections, and to the
National Revenue Center, with a focus on its key business processes. Those tools disclosed that TTB has
adequate internal controls in place to mitigate risk to operations, and that the overall risk of fraud, waste,
and abuse is characterized as “LOW.”
In addition, TTB underwent its first independent audit of the financial information presented on its
FY 2009 balance sheet, and received an unqualified opinon. As a result of the audit, two significant
deficiencies in internal controls were identified and reported as material weaknesses. To address these
deficiencies, the audit recommendations included improvements to property capitalization controls, in
addition to the review and recording of year end accruals and allowance for doubtful accounts.


Bureau Challenges
As a result of the FY 2009 balance sheet audit, TTB received constructive recommendations on how to
improve its internal controls in two respective areas. In response to the deficiencies identified by the
audit regarding TTB property capitalization controls, TTB will reconcile information from its accountable
property system to the core accounting system, and enhance oversight of this operation. In regard to the
second internal control issue, related to the review and recording of year end accruals and allowance for
doubtful accounts, TTB believes that it has established business procedures for recording accrued liabilities
and allowance for doubtful accounts that are sensible and represent a rational approach to identifying
its year-end liabilities and uncollectible tax receivables; however, TTB is implementing improvements
designed to address the deficiencies indentified through the FY 2009 balance sheet audit.




                         Par t 1: M ana ge m e n t’s Di scu ssi o n & An a l ysi s
                                                   27
TTB 2009 Annual Report




          28
                                  TTB 2009 AnnuAl RepoRT



Part II:
Program Performance Results

Performance Overview
TTB revised its suite of measures in FY 2008 to better reflect operating conditions within the industry and
method improvements established by TTB program offices. TTB now reports its performance in terms of
six metrics that represent its ability to supply satisfactory service to its customers in the industry, foster
compliance from taxpayers, employ technology to meet its public protection mission, and return value to
the Nation for its investment in TTB programs.

TTB exceeded the performance targets for all six measures reported to its stakeholders in FY 2009. Based
on external factors and the results achieved this fiscal year, TTB reviewed its FY 2010 performance targets
and updated those in which TTB significantly exceeded its intended performance. To meet its performance
goals in FY 2010, TTB will implement an aggressive strategic agenda that integrates new technology,
human capital management techniques, and targeted efforts in both outreach and enforcement. All
performance results are subject to management review and periodic audit by the Department of the
Treasury.

                                      FY 2009 Performance Measure Status

 Performance Targets Met                                                                                    6

 Performance Targets Not Met                                                                                0

 Baseline                                                                                                   0

 Total Performance Measures                                                                                 6



                           Performance Measure Trends: FY 2005 – FY 2009
                   120%
                           100%                                         100%     100%
                   100%                  89%          89%
                    80%
                    60%
                    40%
                    20%                        11%           11%
                     0%
                               2005        2006            2007           2008     2009


                                                     Met      Not Met




                                Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                    29
                                      TTB 2009 AnnuAl RepoRT


Summary of Collect the Revenue Performance
Table 1.1
                                                                       FY 09                   FY 09      % of
                                                                                      FY 10
      Performance Measure               FY 07       FY 08                                      Target    Target
                                                                                      Target
                                                                Target     Actual              Met?     Reached

 Amount of revenue collected
 per program dollar                       –         $313        $300       $427       $400       Y       142%


 Percentage of voluntary
 compliance from large taxpayers
                                          –          94%         92%       94%        92%        Y       102%
 in filing timely tax payments (in
 terms of revenue)

 Percentage of total tax receipts
 collected electronically                98%     Discontinued     Discontinued         N/A      N/A      N/A


 Percentage of voluntary
 compliance in filing timely and
                                         86%     Discontinued     Discontinued         N/A      N/A      N/A
 accurate tax payments in terms
 of revenue

 Percentage of voluntary
 compliance in filing timely and
 accurate tax payments in terms          75%     Discontinued     Discontinued         N/A      N/A      N/A
 of the number of compliant
 industry members

 Unit cost to process an excise
 tax return                              $61     Discontinued     Discontinued         N/A      N/A      N/A


 Resources as a percentage of
 revenue                                .31%     Discontinued     Discontinued         N/A      N/A      N/A


 Cumulative percentage of excise
 tax revenue audited over three          16%     Discontinued     Discontinued         N/A      N/A      N/A
 years


Performance Discussion
TTB displayed effective performance in both its measure of how efficiently the Bureau conducts its tax
collection activities and in its measure of the extent of voluntary compliance among taxpayers with
significant annual tax liabilities.




                                    Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                        30
                                TTB 2009 Annual Report


The Bureau surpassed by a considerable margin its targeted performance level for the measure: “Amount
of revenue collected per program dollar.” The principle factor contributing to TTB achieving 142 percent of
targeted performance was the passage of the Children’s Health Insurance Program Reauthorization Act
(CHIPRA), which imposed significantly increased Federal excise tax rates on tobacco products. The law
was enacted in February 2009 and went into effect in the third quarter of FY 2009, resulting in dramatic
increases in monthly collections totals. In July alone, monthly revenues increased by $1.7 billion, or 136
percent over the same month in the previous fiscal year. At year end, tobacco collections exceeded FY
2008 revenues by $6 billion. Without additional funding or resources, TTB implemented the provisions of
this legislation, which required the modification of its audit plan and the redeployment of field personnel
as needed, as well as major updates to its tax database. The Bureau’s effectiveness in implementing
CHIPRA resulted in a return on investment for the Collect the Revenue program of $427 for every $1
expended on collection activities. The FY 2010 targeted performance level for this measure was adjusted
to reflect the projected increase in collections in the fiscal year ahead.
TTB maintained the FY 2008 voluntary compliance rate of 94 percent for the timely filing of tax returns
and payments by taxpayers who owe more than $50,000 annually. This rate exceeded the targeted
performance level by 2 percent, and maintained the successful compliance rate achieved in FY 2008. The
Bureau fosters voluntary compliance through its electronic filing options, educational outreach program,
and targeted enforcement efforts.
TTB supported voluntary compliance by expanding its electronic tax filing program in FY 2009 to enable
all excise taxpayers to file and pay taxes electronically through the Pay.gov Web-based system. More than
4,900 TTB taxpayers are registered to use Pay.gov to pay excise taxes and to file excise tax returns and
monthly operational reports. TTB increased the number of registered Pay.gov users by 36 percent over FY
2008.
TTB also implemented an aggressive annual audit plan that incorporates a risk model that took effect
in FY 2009. TTB statisticians develop a risk model using data received from audits and investigations,
statistical analysis, and intelligence received from internal and external sources. Recent audit findings
demonstrate that TTB’s audit program is performing successfully. Repeat audits of industry members with
significant past violations and additional liabilities show they are operating in substantial compliance with
Federal regulations.
TTB will sustain its high rate of voluntary compliance from industry in the year ahead through its targeted,
risk-based audit plan and outreach efforts. The TTB audit plan is reviewed and revised annually. The
FY 2010 audit plan incorporates a refined risk model that accounts for prior year findings and statistical
trends. Audits will continue to emphasize industrial distilled spirits plants (DSP) and DSP storage
terminals, as these entities move significant amounts of undenatured alcohol through the supply chain.
Efforts to promote voluntary compliance also will focus on educating industry of Federal requirements
related to operating in the alcohol, tobacco, and firearms industries, both on premises through guidance
provided by TTB auditors and investigators and through industry seminars. Going forward, educational
programs like TTB Expo 2009 will enable TTB staff to reach broad groups of users and provide advanced
instruction on the reporting and payment of excise taxes and other regulatory requirements.




                              Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                  31
                                        TTB 2009 Annual Report

Summary of Protect the Public Performance
Table 1.2
                                                                                 FY 09            FY 10       FY 09         % of
       Performance Measure                FY 07           FY 08                                               Target       Target
                                                                          Target      Actual      Target      Met?        Reached

  Percent of electronically filed          51%             62%             53%           74%       78%           Y         140%
  Certificate of Label Approval
  (COLA) applications

  National Revenue Center (NRC)              –             90%             85%           89%       85%           Y         105%
  customer service survey results


  Average number of days to                  –              64              72           64         72           Y         111%
  process an original permit
  application at the NRC

  Percentage of importers                    –            22%*             20%           15%       19%           Y         125%
  identified by TTB as illegally
  operating without a Federal
  permit

  Percentage of instances where              –           15%**              Discontinued           N/A         N/A          N/A
  the utilization of International
  Trade Data System (ITDS)
  results in identifying importers
  without permits as a
  percentage of total permits on
  file at TTB’s NRC

  Percentage of COLA                       42%        Discontinued          Discontinued           N/A         N/A          N/A
  applications processed within
  nine calendar days of receipt

  Percentage of permit                     85%        Discontinued          Discontinued           N/A         N/A          N/A
  applications (original and
  amended) processed by the
  NRC within 60 days

  Unit cost to process a Wine              $34        Discontinued          Discontinued           N/A         N/A          N/A
  COLA

*	 TTB revised the name and methodology for this measure in September 2008, after the Treasury performance reporting cycle closed,
   but prior to fiscal year end. The result of 22 percent, reported by the Bureau in the FY 2008 TTB Performance and Accountability
   Report, was calculated using the new method and historic data for FY 2008 retrieved from ITDS.
**	To align with the Department’s annual report, TTB is presenting the original measure and the FY 2008 result as reported in the FY
   2008 Treasury Performance and Accountability Report, which was achieved using the initial calculation methodology, and marking it
   discontinued.


                                     Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                         32
                                 TTB 2009 Annual Report


Performance Discussion
TTB indicates its level of success in meeting its consumer protection mission goal through four measures
of program performance. All of the Bureau’s Protect the Public performance targets were exceeded by a
substantial margin in FY 2009.
The TTB National Revenue Center (NRC) conducted a customer survey to measure satisfaction with
processing times and the level of service provided to the industry. The survey solicits feedback on how
well TTB specialists assist applicants in filing for an original or amended permit and in how TTB serves
industry members who file claims to recover taxes paid on nonbeverage alcohol or overpayments of tax.
Based on responses captured by the NRC through telephone interviews, TTB earned a composite score
of 89 percent for permits and claims processing. This result was slightly below the FY 2008 score, but
remained 4 percent above the Bureau’s goal of maintaining a satisfaction score of at least 85 percent.
Due to strategic improvements in the application investigation process, TTB was able to maintain the 64-
day turnaround time achieved in FY 2008 despite a 4 percent increase in the number of processed original
permits. Achieving high rates of efficiency and effectiveness in processing permit applications is critically
important to both protecting the public and in facilitating market entry for new applicants to the regulated
industries.
Efficiency in permit processing is critical to the Department’s goal of improved economic opportunity.
Improving turnaround time for permit application processing enables alcohol and tobacco permit and
registration holders to begin operating businesses sooner, facilitating U.S. economic growth. Effective
issuance of permits means that unqualified applicants are prevented from obtaining a permit, a critical
barrier to entry for those who seek to conduct illegal operations. Illicit activity in these industries has
the potential to be highly lucrative, and proceeds from trade in non-taxpaid alcohol and tobacco have
been connected to organized crime and terrorist activities. TTB works in partnership with domestic and
international regulatory and law enforcement agencies to address the illicit market and to ensure that
those operating in the regulated industries are qualified to operate.
To this end, TTB used the U.S. Customs and Border Protection’s International Trade Data System (ITDS)
to identify persons importing alcohol and tobacco without a federal permit. Intelligence specialists
compared permit data in TTB’s tax system to the active importers in ITDS to determine who brought
product into the United States without a Federal permit. In FY 2009, TTB issued 206 cease and desist
letters to illegal tobacco importers, mostly involving Internet sales of tobacco. By issuing cease and desist
letters to entities operating without a permit, TTB has been successful in ensuring that these individuals
either complied with TTB permit requirements, or their operations were stopped. The Bureau’s continued
efforts to enforce compliance in the import area is yielding results. Of the tobacco importers examined
by TTB, only 15 percent were found to operating without a permit, 5 percent lower than the Bureau’s
projection of 20 percent, and an improvement on its FY 2008 performance of 32 percent. TTB established
this metric to serve as a starting point to gauge the threat to public safety and Federal revenue posed
by illicit imports. TTB is reviewing additional methods to verify its effectiveness in the area of importer
compliance.




                              Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                  33
                                TTB 2009 Annual Report


TTB also made striking improvements in the area of electronic filing of alcohol beverage label applications.
Usage rates for the COLAs Online label filing system have increased more than 70 percent in 6 years,
from a starting point of 3 percent at the end of FY 2003 to 74 percent in FY 2009. Usage rates for the
electronic COLAs application system have grown to almost three out of four eligible users since the
system was introduced in 2003. Between fiscal years 2008 and 2009, TTB improved on COLAs Online
usage rates by nearly 20 percent. These increases in online applications are due in large part to outreach
efforts by TTB through educational workshops, one-on-one demonstrations to large paper filers, and
the 2009 TTB Expo. Based on the growing interest in and familiarity with the COLAs Online system,
TTB revised its FY 2010 target to an aggressive 78 percent e-filing rate. Reaching this milestone should
result in improved processing times for industry as the Bureau becomes more efficient in processing
label applications. Electronic applications streamline the review process, as those that must be returned
for correction may be resubmitted by the industry member without the assignment of a new TTB
identification number. Paper applications that require correction must be rejected by TTB, and resubmitted
by the industry member under a new identification number.


Summary of Management and Organizational Excellence Performance
Part of the TTB mission is to create the conditions necessary for programs to reach and sustain excellence.
In all aspects of performing its mission, TTB aims to ensure that its programs operate efficiently and
effectively, and with full accountability. TTB accomplishes this by ensuring that program offices receive the
high-quality management and administrative support needed to achieve the Bureau’s goals.
The Bureau’s objectives in the area of Management and Organizational Excellence align with the new
Administration’s emphasis on automating processes to improve services and enhancing its internal
operations to be more efficient and effective. In FY 2009, the Bureau demonstrated its ability to enhance
efficiency and reduce costs through its strategic management of human capital, IT enhancements to
improve operations, and stringent financial management practices.


Human Capital Management
TTB developed a Human Resources (HR) Division Strategic Plan through FY 2012 that outlines strategic
goals, strategies to achieve the goals, and measures of results. As the majority of TTB’s human resource
functions are operated through the Bureau of Public Debt (BPD), TTB establishes and updates, as
appropriate, performance benchmarks and measures to monitor these outsourced functions.
The Bureau’s HR Division completed the Office of Personnel Management (OPM) 2009 Performance
Appraisal Assessment Tool evaluation and reporting.  TTB received overall positive feedback from Treasury
on its General Schedule Performance Management Program receiving a score of 90 points, a top score
among Treasury bureaus. 
During FY 2009, TTB received the findings from the evaluation of the Human Capital Management
Program Evaluation (HCMPE) conducted by Treasury and OPM in August 2008, and was directed to
respond within 60 days on the steps taken to address any required and recommended actions.  Working
closely with its service providers at BPD, TTB provided a timely response to the five evaluation areas under



                              Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                  34
                                TTB 2009 Annual Report


the Delegated Examining function and developed procedures to ensure that all five areas were adequately
addressed.  In February 2009, the Department confirmed that TTB had addressed the required and
recommended actions associated with the HCMPE. Feedback received from the Department indicated a
strong and successful human capital program evidenced by the TTB leadership’s commitment to effective
human capital management.
In FY 2009, TTB held three Labor/Management Partnership Council meetings with the National Treasury
Employees Union (NTEU) under the provisions of the Collective Bargaining Agreement.  These meetings
have been instrumental in fostering the Bureau’s labor management relations.
TTB also prepared a number of significant human resources policies during FY 2009, which required
negotiation with NTEU.  These included the TTB orders related to Training Management, Incentive Awards
Program, and Absence and Leave.  The EEO Office also submitted for review the Alternative Dispute
Resolution Policy, which is in negotiation with NTEU.  This policy will allow employee and managers
to participate in a discussion mediated by a neutral party to settle issues in a manner that will create an
acceptable solution for all parties.
In response to the Government-wide survey to obtain employee feedback, TTB developed a Federal
Human Capital Survey (FHCS) Action Plan for FY 2009 - FY 2010.  TTB ranked 7th out of 216 sub-
component agencies on the FY 2009 Best Places to Work in the Federal Government rankings, and had
high scores in the area of recruitment, development, and retention.  The rankings are determined by the
results of the FHCS and are produced by the Partnership for Public Service and American University’s
Institute for the Study of Public Policy Implementation. The areas where TTB scored lowest are the
same areas identified as problematic throughout the Federal government—Performance Culture and
Leadership/Knowledge Management.  The HR staff conducted focus groups with supervisory and
non-supervisory employees to identify specific actions that would address the survey responses of TTB
employees.  During FY 2009 and through FY 2010, various TTB program offices were given responsibility
for completing the following representative actions:

         •	 Ensure continuation of annual management/supervisory training on topics such as
            performance management, employee recognition, and dealing with problem employees;

         •	 Update the Diversity Strategic Plan and publish it on the Intraweb for access by all employees;

         •	 Publicize the Tuition Reimbursement Program;

         •	 Educate employees on performance management policies;

         •	 Review, and revise as appropriate, guidance on detail assignments;

         •	 Encourage career mapping through greater use of Individual Development Plans; and

         •	 Encourage targeted recruitment (e.g., the Presidential Management Fellows Program) and
            employee development (e.g., the Emerging Leaders Program) as a means of satisfying
            workforce planning/succession needs.




                             Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                 35
                                                TTB 2009 Annual Report


Implementing the action plan will produce increased communication to employees regarding the relation
between individual responsibilities and the Bureau’s mission, ensure a highly talented and well-developed
staff, and enhance succession planning activities.


                                          2008 Federal Human Capital Survey:
                    Positive Responses for TTB Compared to Treasury and Government-Wide Result
               90
                    80%
                                                                                               78%
               80                    75%
                          72% 72%
                                                                                                     70% 67%   68%
                                           67% 66%                          67%
               70                                       64%                                                                       63%
               60                                                                 55% 55%
                                                              51% 49%                                                53% 53%
  Percentage




                                                                                                                                        49% 48%
               50
               40
               30
               20
               10
                0
                    Personal W ork    Recruitment,    Performance Culture    Leadership         Learning &     Job Satisfaction   Satisfaction with
                     Experience      Development, &                                            Knowledge                              Benefits
                                       Retention                                               Management


                                                                    TTB     T-Wide    G-Wide




TTB also received a number one ranking on the FHCS among 216 sub-component agencies in the area
of work-life programs.  The emphasis of the Bureau’s program is on the practical utilization of telework
and work schedule flexibilities.  TTB has also gone beyond the standard protocol to maintain a Health
Improvement Program, which allows employees up to three hours per week to exercise during work
hours.  TTB has procured vending services to include “heart healthy” choices in snack machines.  Finally,
TTB has extensive Employee Assistance Program services available to all employees.  These services
include grief/stress management, family counseling, financial consultation services, mental health
evaluations and referrals, eldercare services, parental skills training, legal assistance, and a host of video/
literary resources.
As a knowledge-intensive organization, TTB requires a highly trained workforce to fulfill the responsibility
to protect the public and collect the revenue within a dynamic and global environment.  During FY 2009,
TTB used a variety of human capital policies and programs for recruiting and attracting talent to ensure
qualified people with the necessary skills are in the right positions, and to continue to retain those
professionals in the future. Successful strategies included partnerships with a diverse range of universities
across the country, use of the Student Educational Experience Program, Federal Career Intern Program
(FCIP), and the Presidential Management Fellows (PMF) Program.  During FY 2009, TTB was also
especially successful with the use of the Student Volunteer Program, creating partnerships and hosting
arrangements for 13 volunteers in three areas of expertise: legal research, knowledge management, and
tobacco research. 




                                             Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                                 36
                                 TTB 2009 Annual Report


In addition, TTB was able to successfully backfill five critical vacancies through the use of the PMF
program, with two of the five hires bringing critically needed new language skills in Russian and
Mandarin Chinese to the Bureau’s International Trade Division.  Also, during this past year, TTB hired
10 interns through college recruitment efforts, the use of online classifieds advertising, and the FCIP
authority in the auditor, investigator, and writer-editor occupations.
Succession planning is a strategic priority for the Bureau, especially as it relates to TTB’s investigative
forces. An estimated 47 percent of the TTB workforce will be eligible to retire in FY 2011. To mitigate
the loss of expertise and close skill gaps in mission-critical occupations, TTB continues to use the
personnel interventions identified in the Pay Demonstration Program—a successful pay-for-performance
pilot project—to enable the Bureau to improve its capacity to recruit, develop, and retain high-caliber
employees.  TTB uses tailored approaches designed, developed, and implemented specifically for the
Bureau’s continuing and evolving needs in order to meet mission requirements and remain competitive
for highly skilled talent.
In the area of training and professional development, TTB developed a new one-week Disclosure Training
course in FY 2009 to be provided to all Field Operations specialists during FY 2010. The protection of
taxpayer return information, as defined by 26 U.S.C. § 6103, is a paramount responsibility of Bureau
employees.  Every employee is expected, at a minimum, to know and comply with the confidentiality
rules governing tax matters under the protection of section 6103. This training offers specific guidance
regarding the procedures controlling the release of such information. 
In addition, during FY 2009, a one-week course on the Statute of Limitation was delivered to all NRC
employees.  This training addressed Internal Revenue Code regulation requirements regarding the statute
of limitation and outlined the basic legal issues that arise in connection with those limitations. The
course also covered the statute of limitation requirements on assessing liabilities, collecting liabilities, and
filing claims.  TTB expects to provide this course annually and expand the offerings to include all Field
Operations employees starting in FY 2010.  Course evaluations prepared by those attending the FY 2009
class were overwhelmingly favorable.
The first class of TTB’s Emerging Leader’s Program (ELP) kicked off during FY 2009, offering three unique
Leadership and Management Certificate Programs to TTB employees.  The certificate programs are for
non-supervisory personnel, first-level supervisors, and second-level managers.  Each certificate program
is comprised of competencies critical for effective leadership, preparing the participants for higher levels of
leadership responsibility.  The full three-year program series is an effective succession planning tool that
is aiding the organization in preparing its leaders to perform in new roles at more challenging levels.  The
selections for the FY 2010 class have been announced.  With the 2010 class selections, 30 TTB employees
will be enrolled in the ELP, which is approximately 6 percent of the TTB workforce.  The first year of
the program has proven to be successful with positive feedback from participants and an increase in
applicants for the 2010 program.  In addition, first-year participants have, on their own initiative, formed
a community of practice and established a monthly book club to read, review, and discuss leadership
development books chosen by the group.




                               Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                   37
                                 TTB 2009 Annual Report


TTB’s Mentoring Program continues to help promote the development of employees through a one-
on-one approach which guides, motivates, and strengthens relationships to accomplish the Bureau’s
mission.  In addition, TTB developed and issued an internal order on ELP Mentoring, and compiled a list
of mentoring best practices and resources that offers suggestions on books, organizations, and references
for ELP participants.
TTB was the first Treasury bureau to undergo an audit as part of the Department’s new evaluation of
bureaus’ Equal Employment Opportunity (EEO) programs.  The feedback received in FY 2009 indicated
positive results and an overall effective rating of the Bureau’s EEO/Diversity Program. Still, TTB
implemented measures to ensure the Bureau sustains and improves effectiveness in this area.  TTB
has assigned three Special Emphasis Program Managers (SEPMs) to work on personnel issues related
to Hispanics, women, and people with disabilities.  The SEPMs are responsible for promoting overall
awareness and providing information on development opportunities to these groups, with the goal of
increasing their representation in the workforce and in positions with higher pay grades.  
During FY 2009, TTB organized and held its first Diversity Week.   This week served as an opportunity to
increase cultural awareness and appreciation and to embrace a culturally inclusive environment where all
people are respected.  
The Bureau also developed and conducted online EEO refresher training through the Treasury Learning
Management System, an automated training delivery and tracking system.  The training ensures that all
TTB employees know and understand their rights and responsibilities in relation to EEO.


Financial Management
TTB established and monitored key performance standards to ensure that its business activities covering
financial accounting and reporting operate in a highly effective and efficient manner. In FY 2009, TTB,
in cooperation with its shared service provider at BPD ARC, achieved all of its performance metrics. TTB
attained a prompt payment rate of 99 percent or more and a compliance rate of 99 percent or more for
electronic funds transfer. TTB also fully met its erroneous payments goals. 
Cash accounts were reconciled within 45 days after the end of the accounting period, while the fund
balance with Treasury account reconciliation was completed within 15 calendar days of the close of the
month. TTB coordinated with BPD ARC to certify the accuracy and reliability of the monthly financial
information reported in the Treasury Information Executive Repository, along with other financial
documents.  The Bureau also met established due dates to ensure timely submission of required Financial
Management Service (FMS) reports.  Monthly closing of financial data was completed within three
business days, and payroll information was downloaded into the Oracle core accounting system within
three working days of receipt of payroll tapes from the National Finance Center.
In addition, TTB and its shared service provider conducted joint reviews of its payroll activity to obtain
reliable projections of payroll costs relative to continuously changing on-board staffing levels.  The payroll
projection system has proven to be a valuable tool and its use has led to better financial information for
decision making on the budget and has helped the Bureau avoid Anti-Deficiency Act violations.  The




                              Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                  38
                                TTB 2009 Annual Report


ability to extract information from both the core accounting system, and make sound payroll projections,
continues to provide reliable and accurate financial information for management use in executing the
budget.
In FY 2009, the Bureau was able to conduct timely reviews of financial information so that program
offices were afforded the data necessary to make efficient use of the Bureau’s annual appropriation, and
fulfill TTB’s tax collection and regulatory responsibilities as outlined under the budget plan. By closely
monitoring the Bureau’s financial status, TTB was successful in making a number of key investments in
support of its mission. These financial reviews were not limited to the current year’s appropriation. TTB
also conducted a review of prior year obligations. This endeavor led to the close out of accounts that no
longer legally obligated TTB. As a result of this comprehensive effort, the Bureau was able to increase its
FY 2008 unobligated balance, of which 50 percent, or $159,500, was reapportioned for use in FY 2009.  The
monies were used to fund activities related to the CHIPRA legislation. This required a coordinated effort
by TTB, BPD, and FMS, as well as Treasury, OMB, and Congress.
In support of Treasury’s OMB Circular A-123 requirements over financial reporting controls, the Office
of Finance and Performance Budgeting tested internal controls related to the financial reporting of tax
collections. The review identified no control weaknesses over TTB’s collection activity and the reporting of
those collections.
The audit of the FY 2009 balance sheet included an opinion on the financial presentation of the FY 2009
balance sheet, a report on internal controls, and a report on compliance with laws and regulations. The
report on internal controls disclosed the need for improvements on property capitalization controls, and
highlighted the need for more stringent review of the recorded year end accruals for financial reporting.
The audit also uncovered an error in the computation of the allowance for doubtful accounts on tax
and trade receivables. The Bureau has begun to address these weaknesses, and corrective actions are
in place or underway to thoroughly resolve these challenges. As a result of this audit, TTB expects to
be well-positioned for the audit of its FY 2010 financial statements. The full audit reports and the TTB
management responses are presented in Part III of this report.
Finally, as a mark of TTB’s conscientious stewardship of its appropriated dollars, the Government
Accountability Office (GAO) did not recommend any reductions, realignments, or restrictions to the
Bureau’s FY 2010 budget after completing its audit of the Bureau’s FY 2010 President’s budget request.


Expansion of Technology Solutions
In FY 2009, TTB developed two significant software updates to its tax database—the Integrated Revenue
Information System (IRIS). IRIS is the central repository of permit, tax, and operational report data. From
receipt of an application through final authorization to operate, each activity associated with this process
is tracked through IRIS. The system also provides a single place for all TTB employees to access this data,
saving Bureau employees substantial time in the accomplishment of daily duties.
Keeping IRIS up to date is essential to supporting TTB’s revenue collection mission. The first development
effort focused on platform upgrades to bring the entire IRIS suite up to the latest version of the underlying




                              Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                  39
                                TTB 2009 Annual Report


software. The second release included significant functionality enhancements, most of which were
required as a result of CHIPRA. This legislation required major changes to TTB’s tax systems, all of which
were accomplished on time and with no additional funding. TTB adapted to make the system changes
required by this statutory mandate by reprioritizing other development efforts and redeploying existing
personnel. IRIS requires additional maintenance to address a growing list of minor fixes and necessary
functional enhancements.
To improve efficiency, TTB explored options to develop an automated permit application system called
Permits Online, aimed at reducing permit application processing and turnaround time. The NRC currently
processes application packets for 23 types of permits or registrations for the alcohol, tobacco, firearms,
and ammunition industries.  New or existing alcohol and tobacco industry members file these packets
to request permission to commence a new regulated industry operation, or to update critical industry
member information such as trade names on an existing operation.  Over the past several years, the
volume of paper applications has increased, making it difficult to maintain current service levels. With the
workload increasing at the same time the Bureau’s workforce is shrinking, this IT initiative is critical to
maintaining present turnaround times.
After an intensive requirements gathering session and market research effort, TTB determined that a
commercial product could provide the required capability 25 percent faster and at a cost that is 25 percent
lower than its typical custom application development. The commercial off-the-shelf solution, purchased
in FY 2009, will be deployed in FY 2010 and fully operational in FY 2011. The system will substantially
improve the Bureau’s ability to timely process permit applications. The system will benefit the industry
as well by giving alcohol and tobacco permit and registration holders’ authorization to operate their
businesses sooner.
TTB also implemented the Voice over Internet Protocol (VoIP) phone system and customer call centers at
its NRC and headquarters offices. The new system leverages TTB’s digital network to provide access to all
TTB resources, including data, fax, phone, and video conferencing capabilities. VoIP also includes standard
features that traditionally involve added cost, such as voicemail, call forwarding, call waiting, caller ID,
and call return. In total, this system will cost TTB about 50 percent less than its previous traditional phone
bills.
The VoIP capability at the NRC was critical in meeting the emerging requirements that resulted from
the CHIPRA legislation, which established an FST on tobacco products that TTB was responsible for
administering. This legislation resulted in more than 50,000 phone calls to the NRC. The system capacity,
advanced voicemail system, and call management features allowed NRC personnel to immediately
answer or return every call received, and ultimately helped in the collection of more than $1.2 billion in
FST revenue.
Because of the substantial increase in phone system capability and the cost savings already realized, TTB
accelerated the VoIP rollout to include all personnel working at remote locations. With VoIP phones, TTB
employees are not tied to their geographical locations and can make calls, securely, from any location with
access to the Internet. Once the transition is completed, full-time teleworkers, which make up one-third
of TTB’s workforce, will no longer need dedicated phone and fax lines at their home offices or remote




                              Par t 2: P rogra m Pe rfo r m a n ce Re su l ts
                                                  40
                                 TTB 2009 Annual Report


work sites. TTB expects to discontinue telephone service for all teleworking employees next fiscal year,
providing substantial FY 2010 savings.
In April 2009, TTB completed testing and began the implementation of a commercial product for server
virtualization. This process involves applying a software application to maximize use of server capability
by dividing a single physical server into multiple isolated virtual environments. This application enabled
TTB to replace physical servers with virtual servers at both TTB data centers. The Bureau implemented
41 virtual servers and retired 17 physical servers. This effort will result in substantial recurring savings as
it significantly reduces the need for space, power, cooling, and hardware refresh. With the success of the
server virtualization program, TTB has targeted a 50 percent reduction in the physical server footprint. An
added benefit to server virtualization is the improved TTB disaster recovery capabilities due to the high
availability features found in server virtualization.
The TTB Internet site, TTB.gov, serves as a primary means of communicating with the public and with
those whom TTB regulates. TTB draws its direction for Web enhancements from customer feedback
provided by the American Customer Satisfaction Index (ACSI) survey—an online survey provided at
random to TTB.gov visitors. In FY 2009, TTB made its site easier to navigate, added color and attractive
icons, and reorganized information to be easier to use and more informative. As a result, the Federal
Consulting Group recognized TTB in April 2009, as one of three Federal agencies that have shown
the largest increase in overall customer satisfaction scores since implementing the ACSI survey. Web
satisfaction has climbed more than 11 points since the 2007 ACSI deployment; an improvement of 4 to 5
points is considered outstanding performance.
TTB also leveraged available Web technologies to add a new online tool for management to keep a
pulse on key workload and performance metrics. The performance dashboard provides a consistent and
efficient means of calculating, collecting, and maintaining key agency performance metrics and makes the
results readily available to TTB managers through an online portal. This system automates the reporting
and presentation of metrics related to collections, permit and label application processing times, and
customer service. The system will ensure increased accuracy in TTB reporting and help management
monitor Bureau performance and industry compliance trends to facilitate strategic decision making.




                              Par t 2: Pro gra m Pe rfo r m a n ce Re su l ts
                                                  41
TTB 2009 Annual Report




          42
                                TTB 2009 AnnuAl RepoRT



Message from the Chief Financial Officer
                                Part of the TTB mission is to meet a standard of excellence in the
                                management of Bureau programs and operations. In FY 2009, the Bureau
                                continued its journey toward increased levels of accountability through
                                integrated financial and performance data and rigorous reviews of our
                                financial operations and related business processes to identify areas for
                                improved efficiency.
                                 Historically, TTB’s financial information has been evaluated as part of the
                                 Department of the Treasury’s consolidated annual financial statements.
                                 With TTB’s annual excise tax collections now reaching $21 billion, it was
                                 decided that TTB should undergo an independent audit of its financial
                                 statements. In FY 2009, the Treasury Office of the Inspector General
                                 engaged a private certified public accounting firm and launched an audit
of the FY 2009 balance sheet, which resulted in the auditors’ issuing an opinion on the FY 2009 balance
sheet, as well as reports on internal control and compliance with government laws and regulations. This
effort precedes an audit of the FY 2010 financial statements. Our request and support of these audits
affirms our commitment to a sound internal control environment and financial reporting excellence.
The Bureau also underwent an audit of its FY 2010 President’s Budget request to Congress by a team from
the Government Accountability Office (GAO). The objective of the audit was to identify existing programs
with significant increases from the prior year and significant unexpended balances, and to review any
new programs in the budget request. Based on their review, GAO did not recommend any reductions,
realignments, or restrictions to TTB’s FY 2010 budget.
In FY 2009, TTB continued its heightened focus on risk management assessments and stringent internal
controls to ensure reliability in financial activities. Results from comprehensive evaluations of our tax
collection and revenue accounting operations indicate that the Bureau adheres to sound internal and
administrative controls, especially in key business processes at the National Revenue Center in support of
the TTB mission, and with the accounting and tracking of the nearly $21 billion in annual Federal excise
tax collections.
Today’s search for management excellence also requires investments in technology that create efficiencies
and realize savings. In this regard, TTB implemented the Voice Over Internet Protocol (VoIP) phone
system, essentially transforming our computers into mobile offices by leveraging our digital network to
provide access to all TTB resources, including data, fax, phone, and video conferencing. This technology
proved critical in meeting the unprecedented flood of phone calls that resulted from the recent CHIPRA
legislation. Once the technology is fully implemented, full-time teleworkers, a significant portion of TTB’s
workforce, will no longer need dedicated phone and fax lines at remote work sites, providing substantial
savings in future budget years.




                           Message fro m th e Ch i e f F i n a n ci a l Offi ce r
                                              43
                               TTB 2009 AnnuAl RepoRT


In the area of performance, TTB used available technologies to develop a new online tool for managers
to track key workload and performance metrics. Use of quality metrics, including customer satisfaction
survey data, plays an integral part in ensuring accountability and improvement in Government
performance. The TTB performance dashboard provides a consistent and efficient means of calculating
and reporting performance metrics to TTB managers through an easily accessible online portal. This effort
has improved the reliability and accuracy of the performance information being gathered and reported by
TTB.
Providing superior administrative support services while meeting our financial management improvement
goals is critical to producing sound agency performance results and providing taxpayer value. We are
excited about the years ahead, and the opportunity to develop and implement new ideas for improving
the management and performance of this organization.




                                            Cheri D. Mitchell
                      Assistant Administrator, Management/Chief Financial Officer




                          Message f rom th e Ch i e f F i n a n ci a l Offi ce r
                                             44
                                TTB 2009 AnnuAl RepoRT



Part III:
Financial Results, Position, Condition
and Auditors’ Reports

Budget Highlights by Fund Account
Salaries and Expenses

                                        FY 2009 Salaries and Expenses
 Appropriations (Public Law 110-161) Consolidated                                               $99,065,000
 Appropriations Bill
       Salaries & Expenses FY 2009                                                              $97,065,000
       Salaries & Expenses FY 2009/2010
                                                                                                 $2,000,000
       (Information Technology Management)


The FY 2009 TTB budget of $99,065,000 consists of direct appropriations. The budget authorizes the full
time equivalent (FTE) staffing level at 525 direct FTE.
The budgeted amount maintains a program level consistent with the current level of effort necessary to
support TTB’s responsibility for revenue collection and the enforcement of laws and regulations governing
alcohol and tobacco commodities.
The Bureau obligated or expended 99.5 percent of the $97,065,000 in FY 2009 direct funding from its
Salaries and Expenses appropriation.
In addition, TTB was provided with $2 million, available until September 30, 2010, to begin
implementation of comprehensive lifecycle planning for information technology equipment.  In FY 2009,
the Bureau awarded contracts in the amount of $869,000 to replace all data storage arrays that were
approaching end-of life, remote access network equipment, servers that are at or beyond end-of life, and
other internal network equipment in our data centers.
In addition to the annual appropriations, the Bureau recovered reimbursable funding of $3.9 million
during the year. The majority of recovered costs are associated with the functioning and support of the
Puerto Rico field office, and are paid from the “cover over” program, which is offset from the $481 million
in cover-over taxes collected on Puerto Rico and Virgin Islands alcohol products sold in the United States.




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  45
                                TTB 2009 AnnuAl RepoRT



                                     FY 2008/2009 Salaries and Expenses
 Reprogramming                                                                                     $159,505



Also during FY 2009, an additional $159,505 from the prior year account of unobligated available balances
(often referred to as the 50 percent account) was authorized by Congress to cover postage and printing
costs associated with the implementation of th CHIPRA legislation.


Offsetting Collections and Reimbursable Accounts from Puerto Rico
Cover Over/ Enforcement Activities
The Bureau collected $3.1 million in offsetting collections during FY 2009. The primary source of
reimbursable funding involved collections from the cover over program and enforcement activity in Puerto
Rico, which amounted to $2.5 million (81 percent) of the offsetting collections.

Puerto Rico Cover Over and Enforcement Activities
All costs associated with the functioning and support of the Puerto Rico office are paid from the cover
over program, which is offset from cover-over taxes collected in the United States on products originating
in Puerto Rico ($472.7 million) and the Virgin Islands ($8.6 million).
In Puerto Rico, TTB conducts annual audits and investigations of industry members regarding the
collection of revenue, application processing, and product integrity. Revenue inspections are used
to conduct tax examinations on major producers of alcohol and tobacco. This is critical due to the
requirements of verifying tax payments under the Internal Revenue Code (IRC), as well as TTB’s
subsequent accountability for all cover-over amounts due to the government of Puerto Rico.
All distilled spirits producers and processors, wineries, wholesalers, importers, Manufacturer of
Nonbeverage Products claimants, and specially denatured alcohol permit applicants are subject to a
qualification inspection under the IRC.
Additionally, major producers of distilled spirits, wine, and malt beverages are subject to inspection and
audits in Puerto Rico.


Linking Budget and Program Spending
TTB has two primary budget activities: collecting all the revenue that is rightfully due and protecting
consumers of alcohol beverages. Assisting industry members to understand and comply with the Federal
laws and regulations regarding the commodities TTB regulates is an integral part of both activities.
In FY 2009, TTB used an account code structure which provides a direct link from the Bureau budget to
specific programs and project activities. An analysis of the data stemming from the account code structure
shows that, in FY 2009, TTB spent the $96,615,000 in obligated or expended resources equally (50/50)
under these two budget activities.



         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  46
                              TTB 2009 Annual Report




                                          Collect     Protect
                    $48,369,000            The          The       $48,246,000
                        50%                           Public          50%
                                         Revenue

                                                                                     The Total Spending
                                                                                     amount includes
                                                                                     obligations and
                                         FY 2009 Total Spending
                                              $96,615,000
                                                                                     expenditures from
                                          Direct Appropriations                      the FY 2009 TTB
                                                                                     appropriation.



Spending  by Major
 FY 2009 Total SpendingObject Class
      By Major Object Class
                                                   In this report, TTB presents its spending by
                                  GSA Rent
                    Advisory &     $4.9 M          budget activity and program to explain the cost of
                    Assistance
                     Services
                    $21.8 M
                                                   delivering the services that support the mission.
                                    Equipment

          Salaries
                                       $4.7 M      The Bureau also presents specific data regarding
         & Benefits
         $56.9 M                   Communications,
                                        Utilities
                                                   the purchase of goods and services by major object
                                         $4.5 M
                                                   class that support its program activities. For TTB,
                                   Travel
                                   $2.8M           the majority of spending falls into two principal
                                Miscellaneous
                                    $1 M           major object classes. These two object class
                                                   categories comprise 82 percent of the Bureau’s
spending from its annual appropriations and include Salaries and Benefits and Advisory and
Assistance Services (Contracts). At a cost of $56.9 million, or 59 percent of total spending by
object class, Salaries and Benefits covers the cost of the Bureau’s roughly 500 FTE positions in FY
2009. The Advisory and Assistance Services object class constitutes $21.8 million, or 23 percent,
of FY 2009 spending, and covers the cost of both commercial and intragovernmental services.
The commercial contracts category is predominantly IT contracts in support of engineering,
infrastructure, and support services. Also, it includes other commercial contracts for services
such as the scanning and imaging of label applications and tax forms, lab maintenance, and
Web site development. Intragovernmental services include spending related to administrative
support services provided by our shared service provider for human resources, accounting, travel,
and procurement. Other intragovernmental contract services include the costs for background
investigations, publications in the Federal Register, and Federal protective services. The Bureau’s
travel costs are primarily related to its audits and investigations. The remaining object classes
that cover the FY 2009 spending activity include those cost categories for rent, communications,
equipment, and other miscellaneous categories.




    Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                             47
                                TTB 2009 Annual Report


In order to ascertain the full costs of each of these budget activities, the overhead costs were allocated
and combined with the direct program costs. TTB arrived at the overhead allocation by applying the
pro rata share of the number of direct program dollars to each overhead cost category. The overhead
is comprised of three major cost components: 1) general and administrative costs; 2) legal costs; and
3) information technology costs. The general and administrative category consists of costs related to
operating the human resources, finance, procurement, training, facilities management, and other support-
type functions.

Spending by Budget Activity to Achieve TTB Mission Goals
Collect the Revenue….. $48,369,000
The Collect the Revenue budget activity encompasses TTB’s revenue strategy and goal to provide the most
effective and efficient system for the collection of all revenue that is rightfully due. It is also designed
to prevent or eliminate tax evasion and other criminal conduct and provide high-quality service while
imposing the least regulatory burden.
Under the Collect the Revenue activity, TTB administers three programs: 1) Alcohol and Tobacco Tax; 2)
Firearms and Ammunitions Excise Tax (FAET); and 3) Outreach and Voluntary Compliance.


                                       Collect The Revenue
                                     Spending by Major Programs


                                            Alcohol & Tobacco
                                                 Program
                                                   88%




                                                                    Outreach &
                                                                     Voluntary
                                                                    Compliance
                                                                     Program
                                                 FAET Program           5%
                                                       7%




In FY 2009, TTB expended 88 percent of its Collect the Revenue resources in collecting Federal excise
taxes from the alcohol and tobacco industries and 7 percent in collecting FAET. The specific projects that
comprise these costs include the processing of tax returns and operational reports at the National Revenue
Center and the audits and investigations conducted on industry.
Costs for the Outreach Program reached five percent of our Collect the Revenue resources. These
resources went toward efforts to educate and train industry members regarding their obligations in the
areas of tax calculations and remittance.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  48
                                TTB 2009 Annual Report


Protect the Public….. $48,246,000
The Protect the Public budget activity encompasses TTB’s strategy and goal to ensure industry compliance
with laws and regulations designed to protect the consumers of alcohol beverages.
TTB does this by assuring the integrity of the people who operate these businesses, of the products
themselves, and of the marketplace in which they are traded.
TTB administers four programs under the Protect the Public budget activity: 1) Permits and Business
Assurance; 2) Advertising, Labeling, and Product Safety; 3) Trade Facilitation; and 4) Outreach and
Voluntary Compliance.


                                           Protect the Public
                                     Spending by Major Programs

                                                    Advertising,
                                                     Labeling &
                                                   Product Safety
                                                      Program
                                                        46%
                             Outreach &                      Permits &
                              Voluntary                      Business
                                                             Assurance
                             Compliance                       Program
                              Program                           41%
                                 6%

                                            Trade
                                          Facilitation
                                           Program
                                              7%



An analysis of the financial data from FY 2009 reveals that TTB spent the preponderance of its Protect the
Public resources on two programs: Labeling, Advertising, and Product Safety at 46 percent, and Permits
and Business Assurance at 41 percent.
The Labeling, Advertising, and Product Safety Program includes activities designed to assure that
beverage alcohol labels fully and accurately describe the products upon which they appear and are not
misleading. It also encompasses activities to verify that alcohol advertisements contain all mandatory
information and do not mislead consumers. The Product Safety component involves all investigative and
laboratory activities performed as part of the Alcohol Beverage Safety and Verification Program, including
work related to domestic and imported product analysis.
The Permits and Business Assurance Program is designed to determine the eligibility of persons wishing
to enter any of the businesses TTB regulates and to process applications for changes to the original permit.
These activities may include a field investigation. The permit is necessary in order to conduct operations
in the regulated industries.
The remainder of the Protect the Public resources were divided between the Trade Facilitation Program (7
percent) and the Outreach and Voluntary Compliance Program (6 percent).



         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  49
                                TTB 2009 Annual Report


Systems and Controls
Introduction
During FY 2009, TTB contracted with BPD ARC to handle its administrative, human resources, and
financial functions.


Accounting Systems and Controls
The BPD ARC accounting system, known as Oracle Federal Financials, is certified by the Joint Financial
Management Improvement Program and is in full compliance with Treasury reporting requirements; it
also meets requirements under the Federal Financial Management Improvement Act (FFMIA).
The Bureau successfully met the Department of the Treasury’s reporting requirements and has maintained
accurate and reliable financial information on TTB’s program activities. The various administrative
modules integrated with the TTB financial system have proven to accurately capture Bureau financial
data and provide reliable information to management to inform decision making. Only two TTB
databases operate outside the BPD ARC environment—the TTB property management system and the tax
administration database, IRIS.


Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
The FMFIA requires Federal agencies to conduct ongoing evaluations of the systems of internal
accounting and administrative control. Annually, TTB must report to Treasury all material weaknesses
found through these evaluations. Treasury submits a consolidated report on the Department’s controls to
the President.
The FMFIA also requires the heads of agencies to provide the President with yearly assurance that
obligations and costs are in compliance with applicable laws; that funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures
are properly recorded and accounted for.
To provide this report and assurance to the President, the Secretary of the Treasury depends upon
information from component heads regarding their management controls. The FMFIA program places
reliance on each office at TTB to maintain a cost-effective system of controls to provide reasonable
assurance that Government resources are protected against fraud, waste, abuse, mismanagement, or
misappropriation.
Responsibilities of the Bureau’s executive staff include ensuring that programs and administrative support
activities are managed efficiently and effectively. Managers must conform to specific management
accountability and improvement policies when designing, planning, organizing, and carrying out their
responsibilities in order to ensure the most efficient and effective operation of their programs.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  50
                                TTB 2009 Annual Report


These policies address:

    •	 Delegation of authority and responsibility;
    •	 Hierarchical reporting of emerging management problems;
    •	 Personal integrity;
    •	 Quality data;
    •	 Separation of key duties and responsibilities;
    •	 Periodic comparisons of actual with recorded accountability of resources;
    •	 Routine assessment of programs with a high potential for risk;
    •	 Systematic review strategy to assess the effectiveness of program operations; and
    •	 Prompt management actions to correct significant problems or improve operations.


Since its inception, TTB has gradually developed its own Bureau-specific policies.
Management accountability systems must assure basic compliance with the objectives of the FMFIA
and the management control standards set by the Government Accountability Office. In addition, any
inspection, audit, evaluation, peer or program review process, self-assessment, or the equivalent, used by
TTB management to keep informed about needs and opportunities for improvement must incorporate
these same standards into its methodology.
Furthermore, the Bureau completed an annual risk assessment for improper payments on all of its
programs and activities. This process disclosed low risk susceptibility for improper payments, and
documented that sound internal management and controls were in place at the Bureau to cover its
disbursements.
The Bureau continues to strengthen and improve the execution of its mission through the application
of sound internal controls over financial reporting. In response to OMB Circular A-123, Management’s
Responsibility for Internal Controls, the Bureau, in concert with the Department, developed and
implemented an extensive testing and assessment methodology that identified and documented internal
controls over financial reporting on our revenue accounting activities.

This increased emphasis on management controls has had a positive impact on programs and enabled
the Bureau to achieve the intended results. The process also ensures that the utilization of resources is
consistent with mission priorities and that program and resources are being used without waste, fraud, or
mismanagement. Also, in addition to the A-123 review, TTB conducted a series of office reviews during FY
2009 that included an extensive review of administrative and internal controls.
The audit of the FY 2009 balance sheet disclosed no instances of noncompliance on FFMIA matters,
and showed that the Bureau operates in susbstantial compliance with 1) Federal financial management
systems requirements, 2) applicable Federal accounting standards, and 3) the United States Government




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  51
                                TTB 2009 Annual Report


Standard General Ledger at the transaction level. However, the audit identified two control deficiencies
related to property accounting and the computation and recording of accrued liabilities and allowance for
doubtful accounts.


Financial Statement Highlights
The following overview of the TTB financial statements highlights certain aspects of the financial
statements for the fiscal year ended September 30, 2009.

    •	 The Statement of Custodial Activity shows the amount of revenue received during FY 2009
       compared with FY 2008, along with tax refunds, drawback on Manufacturer of Nonbeverage
       Products claims, and cover-over payments. The amount displayed shows that the total Federal
       excise tax revenues collected from alcohol, tobacco, firearms, and ammunition amounted to $20.6
       billion. Within this total, the Bureau processed tax refunds, drawback claims, and cover-over
       payments in the amount of $768 million.

          ——Drawback claims of $269 million were processed based on claims filed from MNBPs.
            Under current law, a drawback claim is allowed when distilled spirits on which the tax
            has been paid were unfit for beverage purposes and used in the production of medicines,
            medicinal preparations, food products, flavors, flavoring extracts, or perfumes.

          ——Tax refunds and other adjustments (e.g., interest) were processed in the amount of $18
            million.

          ——Cover-over payments were returned to Puerto Rico and the Virgin Islands in the amount
            of $481 million. Such taxes collected on rum imported in the United States are “covered over,”
            or paid into, the treasuries of Puerto Rico and the Virgin Islands.

          ——The disposition of the custodial revenue, after refunds, claims, and cover-over
            payments, nets to $19.9 billion, and that amount was deposited to the U.S. Treasury to fund
            the Federal Government, with the exception of the Federal firearms and ammunition Federal
            excise taxes. Those revenues, in the amount of $453 million, were remitted to the Fish and
            Wildlife Restoration Fund under provisions of the Pittman Robertson Act of 1937.

    •	 The Statement of Net Cost shows the total net cost of operations at $99.9 million for the Bureau to
       administer its two budget activities.

          ——The total net cost reported as program costs under the Collect the Revenue program was
            $50.0 million.

          ——The total net cost reported as program costs under the Protect the Public program was $49.9
            million.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  52
                                 TTB 2009 Annual Report


    •	 The Balance Sheet shows the assets, liabilities, and net position as of a point in time, in this case, as
       of September 30, 2009.

           ——The total assets were reported as $67.2 million at the close of the fiscal year. Of this amount,
             $31.2 million is classified as the fund balance with Treasury. That fund balance account is
             the undisbursed account balance with the Treasury, primarily resulting from undisbursed
             appropriations.

           ——The total liabilities amount reported is $38.4 million, of which total intragovernmental
             liabilities amounts to $10.2 million. The other liabilities are classified by type, such as
             accrued tax refunds, payables, and other liabilities.

    •	 The Statement of Change in Net Position shows a total net position balance of $28.7 million, and
       that amount represents the unexpended appropriations from both prior periods and from the
       current operating cycle in addition to Net Position from Operations.

    •	 The Statement of Budgetary Resources shows the budgetary resources received and the status
       of those resources. For TTB, the resources are primarily annual appropriations received from the
       Omnibus Appropriations Act in the amount of $99.1 million, in addition to spending authority
       from collections. The offsetting collections amount was $3.1 million. Of that amount, $2.5 million
       is from the recovery of those costs associated with the administration of the cover over program,
       along with other miscellaneous reimbursable activities.


Notes to the Basic Financial Statements
The notes to the basic financial statements provide additional information that is essential to a full
understanding of the financial information provided in the statements.


Supplementary Information
In addition to the basic financial statements and accompanying notes, this report presents other
supplementary information. For instance, TTB includes a table that outlines the tax collections for the past
10 years for each of the key revenue sources. Also, a table has been included to show the refunds, cover-
over payments, and drawback payments for the past 10 years.




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  53
                                TTB 2009 Annual Report


Financial Statements, Accompanying Notes,
and Supplemental Information
Limitations of Financial Statements
 The principal statements have been prepared to report the financial position and results of operations of
the entiy, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared
from the books and records of the entity in accordance with GAAP for federal entities and the formats
prescribed by the Office of Management and Budget (OMB), the statements are in addition to the
financial reports used to monitor and control budgetary rescources, which are prepared from the same
books and records. Only the fiscal 2009 Balance Sheet and related notes have been audited.


Management Responsibilities
Bureau management is responsible for the fair presentation of information contained in the principal
financial statements, in conformity with generally accepted accounting principles (GAAP), and the form
and content for entity financial statements specified by OMB in Circular A-136.

Management is also responsible for the fair representation of TTB’s performance measures in accordance
with OMB requirements. The quality of the Bureau’s internal control structure rests with management, as
does the responsibility for identification of and compliance with pertinent laws and regulations.


TTB in Relation to Treasury’s Annual Financial Statements
The Department of the Treasury received an unqualified audit opinion on its FY 2009 financial statements.
The financial activities of the Bureau are an integral part of the information reported by the Department of
the Treasury.
This unqualified audit opinion means that the financial information presented by the Treasury, which
includes TTB’s financial activities, was presented fairly and in conformity with generally accepted
accounting principles (GAAP) of the United States.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  54
Independent Auditors’ Reports




                                55
56
57
58
59
60
61
62
63
64
65
66
                                 TTB 2009 AnnuAl RepoRT


                        DEPARTMENT OF THE TREASURY
                  ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                BALANCE SHEET
                        As of September 30, 2009 and 2008
                                                                            2009         2008
                                                                                      (Unaudited)
                                                                             (In Thousands)
          ASSETS
            Intragovernmental Assets:
                Fund Balance with Treasury (Note 2)                     $ 31,225        $ 34,948
                Accounts Receivable (Note 3)                                 489              87
                Due from the General Fund (Note 5)                         8,489          12,167
                Advances (Note 7)                                          1,933           2,303
            Total Intragovernmental Assets                                42,136          49,505

             Accounts Receivable (Note 3)                                      379             366
             Tax and Trade Receivables, Net (Note 4)                         9,030          12,255
             Property, Plant and Equipment, Net (Note 6)                    15,650          13,282

          TOTAL ASSETS (Note 8)                                         $ 67,195        $ 75,408

          LIABILITIES
             Intragovernmental Liabilities:
                 Accounts Payable                                       $      408      $      579
                 Payroll Benefits                                              527             462
                 FECA Liabilities                                               64              95
                 Due to the General Fund (Note 4 and Note 5)                 8,173          12,203
                 Other Liabilities (Note 9)                                    854              52
             Total Intragovernmental Liabilities                            10,026          13,391

            Accounts Payable                                               3,820           2,730
            Payroll Benefits                                               2,408           2,139
            FECA Actuarial Liability                                         243             243
            Refunds (Note 5)                                               8,491          12,167
            Unfunded Leave                                                 4,319           4,280
            Cash Bond Liabilities (Note 2)                                 8,677           6,394
            Other Liabilities (Note 9)                                       446           7,941
          TOTAL LIABILITIES                                             $ 38,430        $ 49,285

          NET POSITION
            Unexpended Appropriations                                   $ 17,734        $ 17,463
            Cumulative Results of Operations                              11,031           8,660
          TOTAL NET POSITION                                              28,765          26,123

          TOTAL LIABILITIES AND NET POSITION                            $ 67,195        $ 75,408

The accompanying notes are an integral part of these statements.



         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  67
                                 TTB 2009 AnnuAl RepoRT


                       DEPARTMENT OF THE TREASURY
              ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                         STATEMENTS OF NET COST
               For the Years Ended September 30, 2009 and 2008
                                                                                  2009        2008
                                                                               (Unaudited) (Unaudited)
                                                                                   (In Thousands)

PROTECT THE PUBLIC
  Program Costs
     Intragovernmental Gross Costs                                              $ 13,489         $ 13,513
     Less: Intragovernmental Earned Revenue                                           (7)               -
     Intragovernmental Net Costs                                                  13,482           13,513

        Gross Costs with the Public                                                36,442           35,647
        Less: Earned Revenues from the Public                                         (27)              (1)
        Net Costs with the Public                                                  36,415           35,646

          Total Net Program Cost                                                $ 49,897         $ 49,159

COLLECT THE REVENUE
  Program Costs
     Intragovernmental Gross Costs                                              $ 14,330         $ 13,542
     Less: Intragovernmental Earned Revenue                                         (606)            (419)
     Intragovernmental Net Costs                                                  13,724           13,123

        Gross Costs with the Public                                                38,713           35,724
        Less: Earned Revenues from the Public                                      (2,472)          (2,468)
        Net Costs with the Public                                                  36,241           33,256

          Total Net Program Cost                                                $ 49,965         $ 46,379


NET COST OF OPERATIONS (Note 13)                                                $ 99,862         $ 95,538




The accompanying notes are an integral part of these statements.



         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  68
                                 TTB 2009 Annual Report


                          DEPARTMENT OF THE TREASURY
                 ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                   STATEMENTS OF CHANGES IN NET POSITION
                  For the Years Ended September 30, 2009 and 2008
                                                                                    2009             2008
                                                                                (Unaudited)   (Unaudited)
                                                                                     (In Thousands)
Cumulative Results of Operations

    Beginning Balances                                                          $     8,660      $       8,541

    Budgetary Financing Sources
     Appropriations Used                                                             97,704             91,811

    Other Financing Sources
     Transfers-in/out without reimbursement (+/-)                                       399                116
     Imputed Financing from Costs Absorbed by Others (Note 12)                        4,130              3,730
    Total Financing Sources                                                         102,233             95,657

    Net Cost of Operations (Note 13)                                                (99,862)         (95,538)

    Net Change                                                                        2,371               119

    Cumulative Results of Operations                                             $ 11,031        $       8,660

UNEXPENDED APPROPRIATIONS

    Beginning Balances                                                          $ 17,463         $ 17,893

    Budgetary Financing Sources
     Appropriations Received                                                         99,065           93,515
     Other Adjustments                                                               (1,090)          (2,134)
     Appropriations Used                                                            (97,704)         (91,811)
    Total Budgetary Financing Sources                                                   271             (430)

    Net Position of Unexpended Appropriations                                   $ 17,734         $ 17,463

TOTAL NET POSITION                                                               $ 28,765         $ 26,123




The accompanying notes are an integral part of these statements.



         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  69
                                 TTB 2009 Annual Report


                             DEPARTMENT OF THE TREASURY
                    ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                       STATEMENTS OF BUDGETARY RESOURCES
                     For the Years Ended September 30, 2009 and 2008
                                                                                  2009            2008
                                                                               (Unaudited)     (Unaudited)
                                                                                     (In Thousands)

BUDGETARY RESOURCES (Note 14)
  Unobligated Balance
     Beginning of Period                                                      $      2,408               3,136
  Recoveries of Prior Year Obligations                                               1,102               1,228
  Budget Authority:
   Appropriations Received                                                         99,065               93,515
   Spending Authority from Offsetting Collections:
     Earned
        Collected                                                                    3,097               2,929
        Change in Receivable from Federal Sources                                      408                  74
     Change in Unfilled Customer Orders
     Without Advance from Federal Sources                                             276                  206
     Subtotal                                                                     102,846               96,724
  Permanently not Available                                                        (1,090)              (2,134)
TOTAL BUDGETARY RESOURCES                                                         105,266               98,954

STATUS OF BUDGETARY RESOURCES
  Obligations Incurred: (Note 15)
     Direct                                                                   $    98,235       $       93,255
     Reimbursable                                                                   3,874                3,291
     Subtotal                                                                     102,109               96,546
  Unobligated Balance Apportioned                                                   1,653                  317
  Unobligated Balance not Available                                                 1,504                2,091
TOTAL STATUS OF BUDGETARY RESOURCES                                           $   105,266       $       98,954




The accompanying notes are an integral part of these statements.



         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  70
                                 TTB 2009 Annual Report


                             DEPARTMENT OF THE TREASURY
                    ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                       STATEMENTS OF BUDGETARY RESOURCES
                     For the Years Ended September 30, 2009 and 2008
                                                                                  2009            2008
                                                                               (Unaudited)     (Unaudited)
                                                                                     (In Thousands)

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
  Unpaid obligations brought forward, Oct 1                                   $    19,084       $       19,218
  Uncollected customer payments from Federal
   sources brought forward Oct 1                                                     (880)                (599)
  Total unpaid obligated balance brought forward, net                              18,204               18,619

   Obligations incurred, net                                                      102,109               96,546
   Gross Outlays                                                                   99,582               95,451
   Recoveries of prior year unpaid obligations, actual                             (1,102)              (1,228)
   Change in uncollected customer payments from
    Federal sources                                                                   (684)               (280)

   Obligated balances, net end of period
      Unpaid obligations                                                           20,509               19,084
      Uncollected customer payments from Federal
        sources                                                                    (1,563)                (880)
      Total unpaid obligated balance, net, end of period                           18,946               18,204

  Net Outlays
     Gross outlays                                                                 99,582               95,451
     Offsetting collections                                                        (3,097)              (2,929)
     Distributed offsetting receipts                                                  (17)                  (5)
NET OUTLAYS                                                                   $    96,468       $       92,517




The accompanying notes are an integral part of these statements.



         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  71
                                 TTB 2009 Annual Report


                             DEPARTMENT OF THE TREASURY
                    ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                          STATEMENTS OF CUSTODIAL ACTIVITY
                     For the Years Ended September 30, 2009 and 2008
                                                                              2009                2008
                                                                           (Unaudited)        (Unaudited)
                                                                                   (In Thousands)

SOURCES OF CUSTODIAL REVENUE

   Revenue Received
      Excise Taxes (Note 16)                                           $     20,616,487     $    14,585,275
      Interest, Fines and Penalties                                               2,602                 705
      Other Custodial Revenue                                                        17                   5
   Total Revenue Received (Note 17)                                          20,619,106          14,585,985

   Refunds and Drawbacks (Note 16)                                             (286,655)           (300,525)
   Net Revenue Received                                                      20,332,451          14,285,460

  Accrual Adjustment                                                                450              45,805
Total Source of Custodial Revenue                                      $     20,332,901     $    14,331,265

DISPOSITION OF CUSTODIAL REVENUE
  Amounts Provided to Non-Federal Entities (Note 16)                           481,319              381,033
  Amounts Provided to Fund the
    Federal Government (Note 17)                                             19,851,132          13,904,427
  Accrual Adjustment                                                                450              45,805
Total Disposition of Custodial Revenue                                 $     20,332,901     $    14,331,265

NET CUSTODIAL REVENUE ACTIVITY                                         $              -     $               -




The accompanying notes are an integral part of these statements.



         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  72
                                TTB 2009 Annual Report


Notes to the Financial Statements
Note 1. Summary of Significant Accounting Policies


A.	 Reporting Entity
The Alcohol and Tobacco Tax and Trade Bureau (TTB) was established on January 24, 2003, as a result
of the Homeland Security Act of 2002. The Act transferred firearms, explosives, and arson functions of
the Bureau of Alcohol, Tobacco and Firearms (ATF) to the Department of Justice and retained the tax
collection and consumer protection provisions of the Internal Revenue Code (IRC) and Federal Alcohol
Administration Act in TTB within the Department of the Treasury. While the agency has a new name,
the history of TTB’s regulatory responsibility dates back to the creation of the Department of the Treasury
and the first Federal taxes levied on distilled spirits in 1791. TTB has two primary programs: Collect the
Revenue and Protect the Public. Under the Collect the Revenue program, TTB collects alcohol, tobacco,
firearms, and ammunition excise taxes, and under its Protect the Public program, TTB protects the
consumer by ensuring that alcohol beverages are labeled, advertised, and marketed in accordance with the
law, and facilitates trade in beverage and industrial alcohols.

B.	 Basis of Presentation
The financial statements were prepared to report the significant assets, liabilities, and net cost of
operations, changes in net position, budgetary resources, and custodial activities of TTB. The financial
statements have been prepared from the books and records of TTB in conformity with generally accepted
accounting principles (GAAP) in the United States, and form and content guidance for entity financial
statements issued by the Office of Management and Budget (OMB) in OMB Circular A-136. TTB’s
accounting policies are summarized in this note. GAAP for Federal entities is prescribed by the Federal
Accounting Standards Advisory Board (FASAB), which has been designated the official accounting
standards-setting body for the Federal Government by the American Institute of Certified Public
Accountants. Certain prior year balances may have been reclassified to conform to the current year’s
presentation.

C.	 Basis of Accounting
Transactions are recorded on a proprietary accrual and a budgetary basis of accounting. Under the accrual
basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of when
cash is exchanged. However, under the budgetary basis, funds availability is recorded based upon legal
considerations and constraints. As a result, certain line items on the proprietary statements may not equal
similar lines on the budgetary financial statements.




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  73
                                TTB 2009 Annual Report


D.	 Revenue and Financing Sources

        (1)	 Exchange Revenue
    Exchange Revenues are inflows of resources to a Government entity that the entity has earned by
    providing something of value to the public or another Government entity at a price. The majority of
    the Exchange Revenues earned by the Bureau result form providing services to the Government of
    Puerto Rico , as well as other Treasury entities.

        (2)	 Financing Sources
    Financing sources provide inflows of resources during the reporting period and include
    appropriations used and imputed financing. Unexpended appropriations are recognized separately
    in determining net position, but are not financing sources until used. Imputed financing sources are
    the result of other Federal entities financing costs on behalf of TTB.
    TTB receives the majority of the funding needed to support the Bureau through congressional
    appropriations. The appropriations received are annual and multi-year funding that may be used,
    within statutory limits, for operating and capital expenditures.

        (3)	 Imputed Financing Sources
    Imputed financing sources are the result of Federal entities financing costs on behalf of TTB.
    Those entities pay future benefits for health insurance, life insurance, and pension benefits for TTB
    employees.

E.	 Custodial Revenue
For TTB, most custodial revenues result from collecting taxes on alcohol and tobacco products, which are
transferred to the General Fund, and recognized as a nonexchange revenue on the Federal government’s
consolidated financial statements. The excise taxes collected by TTB come from businesses, and the
taxes are imposed and collected at the producer and importer levels of operations. Members of the
regulated industries paying excise taxes are distilleries, breweries, bonded wineries, bonded wine cellars,
manufacturers of cigarette tubes, manufacturers of tobacco products, and manufacturers and importers of
firearms and ammunition. These taxes are recorded on the records on a modified cash basis of accounting.

F.	 Fund Balance with Treasury
The Fund Balance with Treasury is the undisbursed account balance with the Treasury, primarily resulting
from undisbursed appropriations. The balance is available within statutory limits to pay current liabilities
and finance authorized purchase obligations. The Fund Balance also includes a non-entity balance,
primarily the result of custodial activities related to collecting escrow payments designed to finance
Offers-in-Compromise and cash bonds held in lieu of corporate surety bonds guaranteeing payment of
taxes.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  74
                                TTB 2009 Annual Report


G.	 Accounts Receivable
Intragovernmental accounts receivable consist of amounts due under reimbursable agreements with
Federal entities for services provided by TTB. Public accounts receivable consist of taxes, penalties, and
interest that have been assessed but unpaid at year end.
Receivables due from Federal agencies are considered to be fully collectible. An allowance for doubtful
accounts is established for public receivables based on specific identification and individual analysis.

H.	 Property, Plant, and Equipment
Property, plant, and equipment purchased with a cost greater than or equal to $25,000 per unit and a
useful life of two years or more, is capitalized and depreciated. Normal repairs and maintenance are
charged to expense as incurred.
TTB also capitalizes internal use of software when the unit cost or development costs are greater than or
equal to $25,000. The same threshold also applies to enhancements that add significant functionality to
the software. TTB will amortize this software based on its classification. The classifications are as follows:
(1) Enterprise and other business software (five years) and (2) Personal productivity and desktop operating
software (three years).
Additionally, TTB also capitalizes like assets purchased in bulk when the unit price is greater than or equal
to $5,000 and less than $25,000, with the aggregated purchase amount greater than or equal to $250,000.
Assets are depreciated on a straight-line basis beginning the month the asset was put in to use.

I.	 Advances
Advances are payments made to cover certain periodic expenses before those expenses are incurred. In
accordance with Public Law 91-614, TTB participated in the Treasury’s Working Capital Fund for which
it receives services on a reimbursable basis. Payments from TTB to Treasury are made in advance and
are authorized for services that have been deemed as more advantageous and more economical when
provided centrally. The services provided include those for telecommunications, payroll/personnel
systems, printing, and other central services. The amount reported represents the balance available at the
end of the fiscal year after charges/expenses incurred by the fund are deducted.

J.	 Non-entity Assets
Non-entity assets consist primarily of cash and receivables for excise taxes and fees that are to be
distributed to the Treasury, other Federal agencies, and other governments. Non-entity assets are not
considered a financing source (revenue) available to offset the operating expenses of TTB.

K.	 Liabilities
Liabilities represent the amount of monies, or other resources, that are likely to be paid by TTB as the
result of a transaction or event that has already occurred. However, no liability can be paid by TTB
absent an appropriation. Liabilities for which an appropriation has not been enacted and for which



         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  75
                                TTB 2009 Annual Report


there is uncertainty an appropriation will be enacted, are classified as a liability not covered by budgetary
resources. Also, the Government, acting in its sovereign capacity, can abrogate liabilities of TTB that arise
from other than contracts.
Intragovernmental liabilities consist of amounts payable to the Treasury for collections of excise tax,
fees receivable, payments to other Federal agencies, and accrued Federal Employees’ Compensation Act
(FECA) charges. Liabilities also include amounts due to be refunded to taxpayers, as well as amounts held
in escrow for Offers-in-Compromise and cash bonds held in guaranteeing payment of taxes.

L.	 Litigation Contingencies and Settlements
Probable and estimable litigation and claims against TTB are recognized as a liability and expense for the
full amount of the expected loss. Expected litigation and claim losses include settlements to be paid from
the Treasury Judgment Fund (Judgment Fund) on behalf of TTB and settlements to be paid from Bureau
appropriations. The Judgment Fund pays claims in excess of $2,500. Settlements paid from the Judgment
Fund for TTB are recognized as an expense and imputed financing source.

M.	Annual, Sick, and Other Leave
Annual and compensatory leave earned by TTB employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to current pay rates. Any portions of the accrued
leave, for which funding is not available, are recorded as an unfunded liability. Sick and other leave are
expensed as taken.

N.	 Interest on Late Payments
Pursuant to the prompt payment Act, 31 # U.S.C. & 3901-3907, Federal agencies must pay interest on
payments for goods or services made to business concerns after their due date. The due date is generally
30 days after receipt of a proper invoice or acceptance of the goods or services.

O.	 Retirement Plan
Employees hired after December 31, 1983, are automatically covered by FERS and Social Security. For
most employees hired after December 31, 1983, TTB also contributes the employers’ matching share
of Social Security. For the FERS basic benefit, employees contribute 0.8 percent of basic pay while TTB
contributes 11.2 percent, for a total contribution rate of 12.0 percent in FY 2009, as well as FY 2008. The
cost of providing a FERS basic benefit, as provided by the Office of Personnel Management (OPM), is
equal to the amounts contributed by TTB and the employees, because the plan is fully funded.
All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and TTB makes a mandatory 1
percent contribution to this account. In addition, TTB makes matching contributions, ranging from 1 to 4
percent, for FERS-eligible employees who contribute to their TSP accounts. Matching contributions are
not made to the TSP accounts established by CSRS employees.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  76
                                 TTB 2009 Annual Report


TTB recognized the full cost of providing future pension and other retirement benefits (ORB) for current
employees as required by Statement of Federal Financial Accounting Standards (SFFAS) No. 5. Full cost
includes pension and ORB contributions paid out of Bureau appropriations and costs financed by OPM.
Costs financed by OPM are reported in the accompanying financial statements as an imputed financing
revenue source. Reporting amounts such as plan assets, accumulated plan benefits, or unfunded
liabilities, if any, is the responsibility of OPM.

P.	 Federal Employees’ Compensation Act
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job and employees who have incurred a work-related
injury or occupational disease. The future workers’ compensation estimates were generated from an
application of actuarial procedures developed to estimate the liability for FECA benefits. The actuarial
liability estimates for FECA benefits include the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases. The liability is determined using the paid losses
extrapolation method, which is calculated over the next 37-year period. This method utilizes historical
benefit patterns related to a specific incurred period to predict ultimate payments related to that period.
Claims are paid for TTB employees by the Department of Labor (DOL) from the FECA fund, for which
TTB reimburses DOL. The accrued liability represents claims paid by DOL for TTB employees, for which
the fund has not been reimbursed. The actuarial liability is an estimate of future costs to be paid on claims
made by TTB employees. The estimated future cost is not obligated against budgetary resources until the
year in which the cost is billed to TTB.

Q.	 Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that
affect the reported amount of assets and liabilities, as well as the disclosure of contingent liabilities at the
date of the financial statements, and the amount of revenues and cost reported during the period. Actual
results could differ from those estimates.

R.	 Tax Exempt Status
As an agency of the Federal Government, the Alcohol and Tobacco Tax and Trade Bureau is exempt from
all income taxes imposed by any governing body, whether it is a Federal, state, commonwealth, local or
foreign government.




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  77
                                TTB 2009 Annual Report


Note 2. Fund Balance with Treasury

Fund Balance with Treasury as of September 30, 2009 and 2008
consisted of the following (in thousands):

                                                                  2009              2008
                                                                                 (Unaudited)
    Fund Balances:
     General Funds                                              $ 22,103           $ 20,612
     Other Funds                                                   9,122             14,336
       Total                                                    $ 31,225           $ 34,948

    Status of Fund Balances:
     Unobligated Balance - Available                            $ 1,653           $    317
     Unobligated Balance - Unavailable                             1,504             2,091
     Obligated Balance Not Yet Disbursed                          18,946            18,204
       Subtotal                                                   22,103            20,612
     Adjustment for Non-Budgetary Funds                            9,122            14,336
       Total Status of Fund Balances                            $ 31,225          $ 34,948



The other funds and non-budgetary fund balance primarily represents cash bonds, which are cash
payments made to the Bureau by taxpayers, in lieu of obtaining corporate surety bonds, guaranteeing
payment of taxes. It also includes Offers-in-Compromise (OIC). OICs are payments made to the Bureau,
being held in escrow, to finance offers from taxpayers to settle their tax debt at less than the assessed
amount.
The unobligated balance that is unavailable is the balance of prior years’ expired appropriations.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  78
                                TTB 2009 Annual Report


Note 3. Accounts Receivable
Accounts Receivable as of September 30, 2009 and 2008 consisted of the following (in
thousands):

                                                                                     2009          2008
                                                                                                (Unaudited)
    Intragovernmental Accounts Receivable:
      Due from Treasury Departmental Offices                                       $    204        $     87
      Due from Treasury Executive Office of Asset Forfieture                            285               -
        Total Intragovernmental Accounts Receivable                                $    489        $     87

      Due from the Government of Puerto Rico                                       $    365        $    355
      Due from Commercial Vendors                                                         5               3
      Due from Employees                                                                  9               8
       Total Accounts Receivable Due from the Public                               $    379        $    366


No allowance for doubtful accounts has been recognized, nor have any accounts been written off. All
intragovernmental accounts receivable are fully collectible. Additionally, other non-Federal receivables
consist of a receivable from the government of Puerto Rico, which is collected via an offset to cover-over
payments the Bureau remits to Puerto Rico, and employee accounts receivable, which can be collected via
salary offsets.


Note 4. Tax and Trade Receivables, Net

Tax and Trade Receivables as of September 30, 2009 and 2008 consisted of the
following (in thousands):

                                                                                  2009             2008
                                                                                                (Unaudited)
    Tax and Trade Receivables                                                  $ 107,925          $57,036
    Interest Receivable                                                           18,767           10,096
    Penalties, Fines and Administrative Fees Receivable                           12,007            6,941
      Total Tax and Trade Receivables                                            138,699           74,073
    Allowance for Doubtful Accounts                                             (129,669)         (61,818)
      Total Tax and Trade Receivables, Net                                     $ 9,030            $12,255




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  79
                                 TTB 2009 Annual Report


All tax and trade receivables are non-entity assets. An allowance for uncollectible amounts has been
established based on: 1) an analysis of individual receivable balances and 2) the application of historical
non-collection rates for similar types of receivables. Because current laws governing the collection period
for these tax assessments, 26 U.S.C. 6502, stipulate taxes are collectible for 10 years from the date the taxes
were assessed, a large amount of aged receivables that are not likely to be collected have been offset with
an allowance, but not written off. This is an offsetting liability for Due to General Fund.




Note 5. Due from the General Fund and Due to the General Fund
In addition to collecting taxes from the alcohol and tobacco industries, the Bureau also is responsible for
paying refunds, when applicable, to those same industry members. Amounts due from the General Fund
represent a receivable from appropriations to cover the Bureau’s accrued refund liability to taxpayers of
alcohol and tobacco excise taxes.


                                                      2009                         2008
                                                                                (Unaudited)

   Due from the General Fund                        $ 8,489                      $   12,167




Amounts due to the General Fund primarily represent the balance of receivables related to Alcohol and
Tobacco excise taxes. Receivables related to Firearms and Ammunition excise taxes are payable to the
Department of Interior’s Fish and Wildlife Fund, not the General Fund.


                                                      2009                         2008
                                                                                (Unaudited)

   Due to the General Fund                          $ 8,173                      $   12,203




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  80
                               TTB 2009 Annual Report


Note 6. Property, Plant, and Equipment, Net (PP&E)

Property, Plant and Equipment as of September 30, 2009 and 2008 consisted of the following
(in thousands):

   2009                             Estimated Useful        Acquisition     Accumulated          Net
                                      Life (Years)            Value         Depreciation      Book Value
   Internal Use Software                    3-5             $  8,760          $    3,926       $  4,834
   Equipment                                4-6                5,885               3,687       $  2,198
   Leasehold Improvements                   2-5                  535                 350       $    185
   Building                                 40                 9,772               1,339       $  8,433
     Total PP&E                                             $ 24,952          $    9,302       $ 15,650

   2008 (Unaudited)                 Estimated Useful        Acquisition     Accumulated          Net
                                      Life (Years)            Value         Depreciation      Book Value
   Internal Use Software                    3-5             $  6,053          $    2,658       $  3,395
   Equipment                                4-6                4,815               4,484            331
   Leasehold Improvements                   2-5                1,346                 393            953
   Building                                 40                 9,689               1,086          8,603
     Total PP&E                                             $ 21,903          $    8,621       $ 13,282



Depreciation and amortization are calculated using the straight-line method.
The balance in the buildings account represents TTB’s 13.2 percent equity interest in the National
Laboratory Center facility in Beltsville, Maryland, which TTB co-owns with ATF. The ownership rights
were established in a June 4, 2004, opinion from the Chief Counsel.




        Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 81
                               TTB 2009 Annual Report


Note 7. Advances
Intragovernmental advances consist of the balances paid to Treasury’s Working Capital Fund that have not
yet been earned and billed by the fund.




Note 8. Non-entity Assets

Non-entity assets as of September 30, 2009 and 2008 consisted of the following
(in thousands):

                                                                        2009              2008
                                                                                       (Unaudited)
    Intragovernmental Non-entity Assets:
      Fund Balance with Treasury                                    $    9,122          $    14,336
      Due from the General Fund                                          8,489               12,167
        Total Intragovernmental Non-entity Assets                       17,611               26,503
      Tax and Trade Receivables, Net                                     9,030               12,255
      Total Non-Entity Assets                                           26,641               38,758
      Total Entity Assets                                               40,554               36,650
    Total Assets                                                    $ 67,195            $    75,408




        Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 82
                                  TTB 2009 Annual Report


Note 9. Other Liabilities

Other Liabilities as of September 30, 2009 and 2008 consisted of the
following (in thousands):

                                                                     2009             2008
                                                                                   (Unaudited)
    Due to the Fish and Wildlife Fund                            $     854          $        52
     Other Intragovernmental Liabilities                               854                   52

    Offers-in-Compromise not yet Accepted                              446                7,941
     Total Other Liabilities with the Public                           446                7,941

    Total Other Liabilities                                      $ 1,300            $     7,993



All Other Liabilities are considered current liabilities.



Note 10. Liabilities Not Covered by Budgetary Resources
Liabilities not Covered by Budgetary Resources as of September 30, 2009 and 2008
consisted of the following (in thousands):

                                                                                2009           2008
                                                                                            (Unaudited)
   Accrued FECA Liability                                                   $       64       $          95
    Total Intragovernmental Liabilities not Covered by
      Budgetary Resources                                                           64                  95
   FECA Actuarial Liability                                                         243              243
   Accrued Leave                                                                  4,319            4,280
    Total Liabilities with the Public not Covered by
      Budgetary Resources                                                         4,562            4,523
   Total Liabilities not Covered By Budgetary Resouces                            4,626            4,618
   Total Liabilities Covered by Budgetary Resources                             115,954           44,667
   Total Liabilities                                                        $ 120,580        $    49,285




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  83
                                TTB 2009 Annual Report


Note 11. Future Funding Requirements
Total liabilities not covered by budgetary resources generally do not equal the total financing sources yet
to be provided on the Reconciliation of Net Cost of Operations to Budget. The amounts reported on the
Balance Sheet are period ending balances, while the amounts reported on the Reconciliation of Net Cost
of Operations to Budget are activity for the period.
Generally, liabilities not covered by budgetary resources require future funding and can be liquidated only
with the enactment of future appropriations.



Note 12. Imputed Financing (Unaudited)


Imputed Financing as of September 30, 2009 and 2008 consisted of the
following (in thousands):

                                                           2009                 2008
                                                        (Unaudited)          (Unaudited)
    Health Insurance                                     $     2,576          $     2,339
    Life Insurance                                                 8                    7
    Pension                                                    1,546                1,384
      Total Imputed Financing                            $     4,130          $     3,730



Imputed financing recognizes actual cost of future benefits to be paid by other Federal entities. These
benefits include Federal Employees Health and Benefits Program (FEHB), Federal Employees Group Life
Insurance Program (FEGLI), and pensions. Imputed financing also recognizes costs paid by the Judgment
Fund. The Fund was established and funded by Congress under 31 U.S.C. 1304 to pay in whole or in
part court judgments and settlement agreements negotiated by Treasury on behalf of agencies, as well as
certain types of administrative awards. The Judgment Fund did not pay out any awards on TTB’s behalf
during fiscal years 2009 or 2008.
TTB does not report CSRS assets, FERS assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to retirement plans because the accounting for and reporting of such amounts is the
responsibility of OPM. Based on cost factors provided by OPM, which vary by retirement plan, estimated
future pension benefits for TTB employees, to be paid by OPM, totaled $1.5 million and $1.4million
for fiscal years 2009 and 2008 respectively. Similarly, OPM rather than TTB, reports liabilities for future
payments to retired employees who participate in the FEHB and FEGLI programs. The FEHB cost factor
applied to a weighted average number of employees enrolled in the FEHB program increased in fiscal
year 2009 to $5,756, from $5,220 in fiscal 2008, producing $2.6 million and $2.3 million of imputed cost for




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  84
                                TTB 2009 Annual Report


employees’ heatlth benefits in each respective year. The cost factor, as provided by OPM, for employees
enrolled in the FEGLI program, remained unchanged from fiscal 2008 to 2009, at .02 percent of employees’
basic pay. The FEGLI amounts totaling $8,000 and $7,000 are also included as an expense and imputed
financing source in TTB financial statements for fiscal years 2009 and 2008 respectively.



Note 13. Consolidated Gross Cost and Earned Revenue
by Budget Function (Unaudited)
Consolidated Gross Cost and Earned Revenue by Budget Function Classification as of September 30,
2009 and 2008 consisted of the following (in thousands):

   Fiscal Year Ended September 30, 2009 (Unaudited)
                          Budget Function Classification          Gross         Earned            Net
   Activity               Name                      Code          Costs         Revenue          Costs

   Intragovernmental    Central Fiscal Operations      803      $ 27,819        $     (613)    $ 27,206
   With the Public      Central Fiscal Operations      803         75,155           (2,499)      72,656
   Consolidated         Central Fiscal Operations      803      $ 102,974       $   (3,112)    $ 99,862


   Fiscal Year Ended September 30, 2008 (Unaudited)
                          Budget Function Classification          Gross         Earned            Net
   Activity               Name                      Code          Costs         Revenue          Costs
nal Classification (Unaudited)
   Intragovernmental    Central Fiscal Operations      803      $ 27,055        $     (419)    $ 26,636
   With the Public      Central Fiscal Operations      803        71,371            (2,469)      68,902
   Consolidated         Central Fiscal Operations      803      $ 98,426        $   (2,888)    $ 95,538




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  85
                                    TTB 2009 Annual Report


Note 14. Statement of Budgetary Resources vs. Budget of the
United States Government (Unaudited)
The following charts displays balances from the fiscal year 2009 and 2008 Statement of Budgetary
Resources and actual fiscal year balances included in the fiscal year 2011 and 2010 President’s Budgets.
There were no differences.
                                                                September 30, 2009              September 30, 2008
                                                             (In Millions / Unaudited)       (In Millions / Unaudited)
The following charts displays balances from the fiscal yearStatement
                                                            2009 and   of 2008 Statement     of Budgetary
                                                                                           Statement  of
                                                             Budgetary        President's   Budgetary         President's
Resouces and actual fiscal year balances included in the fiscal  year 2011 and
                                                            Resourses                2010 Presidents
                                                                                Budget      Resourses Budgets.  Budget

BUDGETARY RESOURCES AVAILABLE FOR OBLIGATION                       $      103    $     103      $       97    $        97

STATUS OF BUDGETARY RESOURCES AVAILABLE OBLIGATION
 Obligations Incurred                                              $      102    $     102      $       97    $        97
 Unobligated balance carried forward, end of year                           1            1             -              -
TOTAL STATUS OF BUDGETARY RESOURCES AVAILABLE FOR
 OBLIGATION                                                        $      103    $     103      $       97    $        97
There were no differences.
NET OUTLAYS                                                        $       96    $      96      $       93    $        93



Additionally, the FY 2011 President’s Budget disclosed budget authority of $473 million for fiscal year
2009, funding cover-over payments to Puerto Rico, which is not reported in the Statement of Budgetary
Resources.
The cover-over payments and associated tax revenues are reported as custodial activity of the Bureau.
The tax revenues are not available for use in the operation of the Bureau and are not reported on the
Statement of Net Cost. Likewise, the resultant cover-over payments are not recognized as an operating
expense of the Bureau. Consequently, to present the refunds as an expense of the Bureau on the
Statement of Net Cost would be inconsistent with the reporting of the related Federal tax revenue and
would materially distort the costs incurred by the Bureau in meeting its strategic objectives. Further, since
this activity is not reported on the Statement of Net Cost, it would be contradictory to report the budget
authority on the Statement of Budgetary Resources.




          Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                   86
                               TTB 2009 Annual Report


Note 15. Apportionment Categories of
Obligations Incurred (Unaudited)
Obligations Incurred as of September 30, 2009 and 2008 consisted of the following (in
thousands):

                                                                                               Total
        Fiscal            Apportionment             Direct           Reimbursable           Obligations
        Year                Category              Obligations         Obligations            Incurred

  2009 (Unaudited)          Category B            $    98,235         $        3,874        $   102,109

  2008 (Unaudited)          Category B            $    93,255         $        3,291        $     96,546



The amount of direct and reimbursable obligations against amounts apportioned under Category B is
reported in the table above. Apportionment categories are determined by the apportionment categories
reported on the Standard Form 132 Apportionment and Reapportionment Schedule. Category B represents
annual apportionments.
                                                                         2009                 2008
                                                                      (Unaudited)          (Unaudited)

Undelivered Orders End of Period                                     $      15,278         $     15,478



Note 16. Net Custodial Revenue Activity (Unaudited)
•	 Excise Taxes
    As an agent of the Federal Government and as authorized by 26 U.S.C., TTB collects excise taxes from
    alcohol, tobacco, firearms, and ammunition industries. In addition, special occupational taxes are
    collected from certain alcohol and tobacco businesses. During FY 2009 and FY 2008, TTB collected
    $20.6 billion and $14.6 billion respectivlely in taxes, interest, and other custodial revenues.
    Substantially all of the taxes collected by TTB net of related refund disbursements are remitted to the
    Department of Treasury General Fund. The Department of Treasury further distributes this revenue
    to Federal agencies in accordance with various laws and regulations. The firearms and ammunition
    excise taxes are an exception. Those revenues are remitted to the Fish and Wildlife Restoration Fund
    under provisions of the Pittman-Robertson Act of 1937.




        Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 87
                               TTB 2009 Annual Report


•	 Refunds and Other Payments
   During FY 2009 and FY 2008, TTB issued nearly $768 million and $682 million in refunds, cover-over
   payments, and drawback payments in the respective years.

   Tax Refunds
   Tax Refunds result when taxpayers file returns for payments made for a given tax period and the
   result of the return is an overpayment.

   Cover-over Payments
   Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on certain
   articles produced in Puerto Rico and the Virgin Islands, and imported into the United States. In
   accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the United States are
   custodial revenues and “covered over,” or paid into, the treasuries of Puerto Rico and the Virgin
   Islands.
   TTB maintains operations in Puerto Rico to enforce the provisions of chapter 51 in respect to items
   of Puerto Rican manufacture brought in to the United States. These operations include conducting
   annual revenue, application, and product integrity investigations of large alcohol and tobacco
   industry members. Except for application investigations, TTB investigates medium and small alcohol
   and tobacco producers in response to specific problems and risk indicators. Revenue inspections are
   used to verify that TTB is collecting all of the revenue that is rightfully due from the taxpayer. TTB
   staff in Puerto Rico also conducts qualification inspections of all distilled spirits producers/processors,
   wineries, wholesalers, importers, Manufacturer of Nonbeverage Products (MNBP) claimants, and
   Specially Denatured Alcohol permit applicants. All costs associated with the functioning and
   supporting of the Puerto Rico office, $2.5 million in each of FY 2009 and FY 2008 respectively, are
   offset against the cover-over payments made by the United States to Puerto Rico.

   Drawbacks
   Under current law, 26 U.S.C. 5134, Manufacturers of Nonbeverage Products may be eligible to claim
   a refund of tax paid on distilled spirits used in their products. In the case of distilled spirits, on which
   the tax has been paid or determined, a drawback shall be allowed on each proof gallon at the rate
   of $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund is
   due upon the claimant providing evidence that the distilled spirits on which the tax has been paid
   or determined were unfit for beverage purposes and were used in the manufacture or production of
   medicines, medicinal preparations, food products, flavors, flavoring extracts, or perfume.




       Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                88
                             TTB 2009 Annual Report


Refunds, Drawbacks and Coverover Payments as of September 30, 2009 and 2008
consisted of the following (in thousands):

                                                                           2009                2008
                                                                        (Unaudited)         (Unaudited)
  Alcohol and Tobacco Excise Tax Refunds                                 $ 17,791            $ 14,125
  Drawbacks on MNBP Claims                                                268,612             283,462
  Interest and Other Payments                                                 252               2,938
      Refunds and Drawbacks                                               286,655             300,525
  Cover-over Payments - Puerto Rico                                         472,695             373,418
  Cover-over Payments - Virgin Islands                                        8,624               7,615
    Amounts Provided to Non-federal Entities                                481,319             381,033
  Total Refunds, Drawbacks and Coverover Payments                        $ 767,974           $ 681,558




      Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                               89
                                TTB 2009 Annual Report


Note 17. Custodial Revenue (Unaudited)
Collection and Disposition of Custodial Revenue as of September 30, 2009 and 2008 consisted of
the following (in thousands):

                                    FY 2009 Collections and Refunds by Tax Year (Unaudited)           FY 2009
                                                                                    Pre-
  Revenue Type                        2009            2008          2007           2007                 Total
  Excise Taxes                  $ 16,779,884     $ 3,822,950     $     2,678    $    10,975       $ 20,616,487
  Fines, Penalties,
   Interest and Other           $          738   $       1,518   $       355    $         8       $        2,619
  Total Revenue Received            16,780,622       3,824,468         3,033         10,983           20,619,106
  Less: Amounts Collected
    for Non-federal Entities        (481,319)          -                   -              -           (481,319)
  Total                         $ 16,299,303 $ 3,824,468         $     3,033    $    10,983       $ 20,137,787
  Refund Type
  Excise Taxes                  $      135,765   $    146,681    $     2,317    $     1,699       $     286,462
  Fines, Penalties,
   Interest and Other                      193               -              -                 -                 193

  Total Refunds & Drawbacks     $      135,958   $    146,681    $     2,317    $     1,699       $     286,655
  Amounts Provided to Fund
   the Federal Government       $ 16,163,345     $ 3,677,787     $       716    $     9,284       $ 19,851,132


                                    FY 2008 Collections and Refunds by Tax Year (Unaudited)           FY 2008
                                                                                    Pre-
  Revenue Type                        2008            2007          2006           2006                 Total
  Excise Taxes                  $ 10,733,580     $ 3,847,347     $     1,935    $     2,413       $ 14,585,275
  Fines, Penalties,
   Interest and Other                      343             290            18             59                  710
  Total Revenue Received            10,733,923       3,847,637         1,953          2,472           14,585,985
  Less: Amounts Collected
    for Non-federal Entities        (381,033)          -                   -              -           (381,033)
  Total                         $ 10,352,890 $ 3,847,637         $     1,953    $     2,472       $ 14,204,952
  Refund Type
  Excise Taxes                  $      155,607   $    139,432    $     4,120    $       530       $     299,689
  Fines, Penalties,
   Interest and Other                      836              -              -              -                 836
  Total Refunds & Drawbacks     $      156,443   $    139,432    $     4,120    $       530       $     300,525
  Amounts Provided to Fund
    the Federal Government      $ 10,196,447     $ 3,708,205     $     (2,167) $      1,942       $ 13,904,427




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  90
                                TTB 2009 Annual Report


Note 18. Reconciliation of Net Cost of Operations
to Budget (Unaudited)
The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
obligations and the proprietary net cost of operations.
Reconciliation of Net Cost of Operations to Budget, as of September 30, 2009 and 2008 consisted of the
following (in thousands)

                                                                                   2009            2008
                                                                                (Unaudited)     (Unaudited)
                                                                                      (In Thousands)
Resources Used to Finance Activities
  Budgetary Resources Obligated
     Obligations Incurred                                                       $ 102,109          $    96,546
     Less: Spending Authority from Offsetting Collections
       and Recoveries                                                               (4,883)             (4,437)
     Obligations Net of Offsetting Collections and Recoveries                       97,226              92,109
     Less: Offsetting Receipts                                                         (17)                 (5)
     Net Obligations                                                                97,209              92,104
  Other Resources
     Transfers In/Out without Reimbursement (+/-)                                     399                  116
     Imputed Financing from Costs Absorbed by Others                                4,130                3,730
     Net Other Resources Used to Finance Activities                                 4,529                3,846
  Total Resources Used to Finance Activities                                    $ 101,738          $    95,950




         Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  91
                               TTB 2009 Annual Report


Resources Used to Finance Items not Part of the
  Net Cost Of Operations
     Change in Budgetary Resources Obligated for Goods, Services
      and Benefits Ordered but not Yet Provided (+/-)                          $     (473)        $      401
     Resources that Fund Expenses Recognized in Prior Periods                          31                  -
     Other Budgetary Offsetting Collections and Receipts that
      do not Affect Net Cost of Operations                                            (17)                 (5)
     Resources that Finance the Acquisition of Assets                               5,536               2,179
     Other Resources or Adjustments to Net Obligated Resources
      that do not Affect Net Cost of Operations (+/-)                                (399)               (116)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                          $    4,678         $     2,459

  Total Resources Used to Finance the Net Cost of Operations                   $   97,060         $    93,491

Components of the Net Cost of Operations Requiring
 or Generating Resources in Future Periods
  Components Requiring or Generating Resources in Future Periods:
     Increase in Annual Leave Liability                                        $       39         $      393
     Other (+/-)                                                                        -                159
  Total Components of Net Cost of Operations that will Require
   or Generate Resources in Future Periods                                     $       39         $      552

Components of the Net Cost of Operations not Requiring
 or Generating Resources
     Depreciation and Amortization                                             $    2,763         $     1,499
     Other                                                                              -                  (4)
  Total Components of Net Cost of Operations that will not Require
   or Generate Resources                                                       $    2,763         $     1,495

  Total Components of Net Cost of Operations that will not Require
   or Generate Resources in the Current Period                                 $    2,802         $     2,047

NET COST OF OPERATIONS                                                         $   99,862         $    95,538




Note 19:  Contingent Liabilities
As of September 30, 2009, TTB is party to three legal actions, regarding personnel matters, where legal
counsel believes an unfavorable outcome is reasonably possible.  The total maximum amount plaintiffs can
recover for these  three cases is $700,000.  However, the total potential liability cannot be estimated.




        Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 92
                                 TTB 2009 Annual Report


Required Supplementary Information (Unaudited)
Budgetary Information
Budgetary information aggregated for the purposes of the Statement of Budgetary Resources should
be disaggregated for each of an entity’s major budget accounts (i.e., Approriated Funds, Trust Funds,
Revolving Funds, or other funds) and presented as Supplementary Information. However, for proprietary
reporting, TTB only has appropriated funds. Consequently, a Combining Statement of Budgetary
Resources disaggregated by fund type has not been presented.


Excise Tax and Other Collections

                                    Required Supplementary Information
                               Excise Tax and Other Collections by Fiscal Year
                                                 Unaudited
Dollars in Thousands
 Fiscal
  Year       Alcohol      Tobacco          FAET          SOT           FST           Other          Total
 2000      $ 6,777,592   $ 6,758,060   $   197,840   $   102,803   $  261,824    $       351   $   14,098,470
 2001        6,674,425     7,119,726       175,959       103,610          528            168       14,074,416
 2002        6,889,401     7,763,652       205,027       101,893      115,609            159       15,075,741
 2003        6,910,631     7,380,807       193,414       103,781        1,628              -       14,590,261
 2004        6,995,366     7,433,852       216,006       100,562            -            359       14,746,145
 2005        7,074,076     7,409,608       225,818        10,190            9            141       14,719,842
 2006        7,182,940     7,350,058       249,578         2,895          638            146       14,786,255
 2007        7,232,138     7,194,081       287,835         2,808            -             32       14,716,894
 2008        7,420,576     6,851,705       312,622           448            -            634       14,585,985
 2009        7,424,292    11,548,504       452,693           272    1,192,375            970       20,619,106
Average    $ 7,058,144   $ 7,681,005   $   251,679   $    52,926   $ 157,261     $       296   $   15,201,312




The sharp decrease in SOT tax collections was the result of a new law that became effective during fiscal
year 2005 that suspended the collection of most of the taxes. The law became permanent in 2008.
TTB collects Firearms and Ammunition Excise Tax (FAET) on behalf of the Department of Interior, U.S.
Fish and Wildlife Service, and deposits the collections directly into the Fish and Wildlife Restoration
Fund. During fiscal years 2009 and 2008, TTB incurred $2.9 million and $3.2 million respectively of direct
and indirect costs associated with collecting the FAET taxes. The law currently does not provide for us to
recover these costs. The cost of the program was communicated to the U.S. Fish and Wildlife Service so
they could properly record an imputed cost in their financial records.




          Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                   93
                                TTB 2009 Annual Report


Refunds, Cover-over Payments, and Drawback Payments


                           Required Supplementary Information
          Refunds, Cover-over Payments, and Drawback Payments by Fiscal Year
                                       Unaudited
Dollars in Thousands
 Fiscal    Cover Over Cover Over        A&T       Drawbacks   Interest
  Year     Puerto Rico Virgin Islands Excise Tax MNBP Claims and Other       Total
 2000       $   296,313     $       2,963    $     5,420     $   261,377      $      1,221    $   567,294
 2001           332,903             3,532         13,260         289,985             1,765        641,445
 2002           340,362             5,145         10,523         361,854             1,855        719,739
 2003           356,144             6,405         15,168         296,168             2,011        675,896
 2004           335,293             6,244         15,409         355,605             1,216        713,767
 2005           419,602             6,010         18,504         317,132             2,100        763,348
 2006           358,664             6,491         17,524         337,632               699        721,010
 2007           459,278             8,054         13,208         335,706               972        817,218
 2008           373,418             7,615         14,125         283,462             2,938        681,558
 2009           472,695             8,624         17,791         268,612               252        767,974
Average     $   374,467     $       6,108    $    14,093     $   310,753     $       1,503    $   706,925


A&T - Alcohol and Tobacco
MNBP - Manufacturer of Nonbeverage Products
Note - During October 2008, the Puerto Rico cover-over rate was increased from $10.50 per proof
gallon to $13.25 per proof gallon, with retroactive provisions, resulting in a subtantial increase in the
Puerto Rico cover-over payments during FY 2009.




        Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 94
                             TTB 2009 Annual Report


Other Accompanying Information (Unaudited)
Intragovernmental Assets

                     Other Accompanying Information
                   Consolidated Intragovernmental Assets
                         As of September 30, 2009
                                 Unaudited
Dollars in Thousands
                          Agency Fund Balance      Accounts                             Advances and
Trading Partner            Code      W/Treasury   Receivable                            Other Assets
Department of the Treasury            20         $      31,225        $       489       $            1,933
General Fund                          99                     -              8,489                        -
          Total                                  $      31,225        $     8,978       $            1,933



                     Other Accompanying Information
                   Consolidated Intragovernmental Assets
                         As of September 30, 2008
                                 Unaudited
Dollars in Thousands
                          Agency Fund Balance      Accounts                             Advances and
Trading Partner            Code      W/Treasury   Receivable                            Other Assets

Department of the Treasury            20         $      34,948        $     87          $            2,303
General Fund                          99                     -          12,167                           -
          Total                                  $      34,948        $ 12,254          $            2,303




      Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                               95
                               TTB 2009 Annual Report


Intragovernmental Liabilities

                                 Other Accompanying Information
                              Consolidated Intragovernmental Liabilities
                                      As of September 30, 2009
                                             Unaudited
Dollars in Thousands
                                               Agency          Accounts         Accrued       Custodial and
Trading Partner                                 Code           Payable           FECA        Other Liabilities
Government Printing Office                        04       $         241    $            -    $             -
Department of the Interior                        14                   -                -                854
Department of Justice                             15                 104                -                  -
Department of Labor                               16                   -               64                  -
Office of Personnel Management                    24                   -                -                384
General Services Administration                   47                  55                -                  -
Department of Health and Human Services           75                   2
Department of Defense                             97                   6                -                   -
Treasury General Fund                             99                   -                -               8,316
                    Total                                  $         408    $          64     $         9,554




                                 Other Accompanying Information
                              Consolidated Intragovernmental Liabilities
                                      As of September 30, 2008
                                             Unaudited
Dollars in Thousands
                                               Agency          Accounts         Accrued       Custodial and
Trading Partner                                 Code           Payable           FECA        Other Liabilities
Government Printing Office                        04       $          55    $            -    $              -
Department of the Interior                        14                   -                -                  52
Department of Justice                             15                 308                -                   -
Department of Labor                               16                   -               95                   -
Department of the Treasury                        20                  35                -                   -
Office of Personnel Management                    24                   -                -                 335
General Services Administration                   47                 156                -                   -
Treasury General Fund                             99                  25                -              12,330
                    Total                                  $         579    $          95     $        12,717




        Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                 96
                             TTB 2009 Annual Report


Intragovernmental Earned Revenue


                        Other Accompanying Information
                Consolidated Intragovernmental Earned Revenue
            For the Fiscal Years Ended September 30, 2009 and 2008
                                   Unaudited
Dollars in Thousands                               FY 2009         FY 2008
                                 Agency
Trading Partner                   Code
Department of Justice                        15                    $            -                     42
Department of Treasury                       20                               613                    377
 Total                                                             $          613        $           419


Budget Function Classification             Code                        FY 2009               FY 2008
Central Fiscal Operations                   803                    $          613        $           419
 Total                                                             $          613        $           419




      Par t 3: F inanc ial Result s, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                               97
                                TTB 2009 Annual Report


Intragovernmental Gross Cost
                         Other Accompanying Information
                   Consolidated Intragovernmental Gross Cost
             For the Fiscal Years Ended September 30, 2009 and 2008
                                    Unaudited
Dollars in Thousands                                FY 2009         FY 2008
                                           Agency
Trading Partner                             Code
Library of Congress                                          03          $         55         $         54
Government Printing Office                                   04                   402                  296
Department of Interior                                       14                     2                  -
Department of Justice                                        15                   650                  679
Department of Labor                                          16                    28                   26
Department of State                                          19                     2                    9
Department of the Treasury                                   20                 5,983                5,930
Office of Personnel Management                               24                11,852               11,164
General Services Administration                              47                 5,607                5,817
Environmental Protection Agency                              68                     7                  -
Department of Homeland Security                              70                   319                  351
Department of Health and Human Services                      75                    30                   28
National Archives Records Administration                     88                    35                   29
Department of Defense                                        97                    41                   37
General Fund                                                 99                 2,806                2,635
                    Total                                                $     27,819         $     27,055


During fiscal years 2009 and 2008, TTB incurred costs with other Federal agencies totaling more than $27
million in each of the respective years. The majority of those costs were associated with the five entities
detailed below.

•	 Department of Justice: TTB paid ATF $650,000 and $679,000 in fiscal years 2009 and 2008
   respectively for shared lab space and shared building services.

•	 Department of the Treasury: The Bureau received services from Treasury’s Working Capital Fund,
   as well as administrative services from the Bureau of Public Debt’s Administrative Resource Center, in
   fiscal years 2009 and 2008 in the amounts of $6.0 million and $5.9million respectively.

•	 Office of Personnel Management: TTB incurred $11.9 million and $11.2million in costs for
   employee benefits for fiscal years 2009 and 2008 respectively.

•	 General Services Administration: TTB paid $5.6 million and $$5.8 million to GSA for rent and
   information technology services in fiscal years 2009 and 2008 respectively.

•	 General Fund: The Bureau paid $2.8 million and $2.6 million respectively for employee benefits and
   lockbox fees in fiscal years 2009 and 2008.




         Pa r t 3: F inanc ial Results, Po si ti o n , Co n di ti o n , a n d Au di to rs’ Re po r ts
                                                  98
                                 TTB 2009 AnnuAl RepoRT



Part IV: Appendices

Principal Officers of TTB
Administrator . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  John Manfreda

Deputy Administrator . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Vacant

Equal Employment Opportunity and Diversity  . . . . . . . . . . . . . . . . . . . .  Altivia Jackson

Assistant Administrator, Field Operations . . . . . . . . . . . . . . . . . . . . . . . . . .  Mary Ryan

Assistant Administrator, Headquarters Operations  . . . . . . . . . . . . . . . . . William Foster

Assistant Administrator, Management/CFO  . . . . . . . . . . . . . . . . . . . . . . Cheri Mitchell

Assistant Administrator, Information Resources/CIO . . . . . . . . . . . . . . .  Robert Hughes

Director, Office of Inspection  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Theresa Glasscock

Executive Liaison for Industry and State Matters  . . . . . . . . . . . . . Susan Stewart Evans

Chief Counsel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Robert Tobiassen




                                  For additional information, contact:


                             Alcohol and Tobacco Tax and Trade Bureau
                                  1310 G Street, NW, Suite 300 East
                                         Washington, DC 20220


                                              (202) 453-2000


                                            http://www.ttb.gov




                                           Pa r t 4: Appe n di ce s
                                                      99
TTB 2009 AnnuAl RepoRT


  TTB Organization Chart




     Par t 4: Appe n di ce s
              100
                                   TTB 2009 Annual Report


Connecting the Treasury and TTB Strategic Plans

                        Economy: U.S. and World Economies Perform at Full Economic Potential

 TREASURY STRATEGIC GOALS AND              TTB MISSION AND STRATEGIC
                                                                                        TTB PTP OBJECTIVES
          OBJECTIVES                                 GOALS

 TREASURY ECONOMIC                       PROTECT THE PUBLIC:                    TTB PTP 1.1 Issue permits to
 STRATEGIC OBJECTIVE:                                                           qualified applicants
 Improved economic opportunity,          1. BUSINESS INTEGRITY:
 mobility and security with robust,      Assure that only persons who carry     TTB PTP 1.2 Assure that no current
 real, sustainable economic growth       permits as authorized by statute       industry members are linked to
 at home and abroad                      operate within the industries TTB      criminal or terrorist organizations, or
                                         regulates                              are otherwise a prohibited person
 Outcome:
 Strong U.S. economic                    2. PRODUCT INTEGRITY:                  TTB PTP 2.1 Assure that industry
 competitiveness                         Help industry members comply with      members provide full and accurate
                                         all Federal labeling and advertising   product information to the
                                         requirements for their products        consumer
                                         3. MARKET INTEGRITY:                   TTB PTP 2.2 Assure that industry
                                         Assure the alcohol marketplace is      members avoid prohibited language
                                         free from anti-competitive practices   and misleading statements on their
                                                                                labels and advertising
                                         4. EFFECTIVE AND EFFICIENT
                                         SYSTEMS TO PROMOTE                     TTB PTP 3.1 Identify and address
                                         ECONOMIC OPPORTUNITY:                  unfair trade practices and barriers
                                         Facilitate economic opportunity        in the U.S. alcohol marketplace
                                         and growth by maximizing TTB
                                         PTP systems’ effectiveness and         TTB PTP 3.2 Identify and address
                                         efficiencies                           barriers in the international
                                                                                marketplace
                                                                                TTB PTP 4.1 Increase effectiveness
                                                                                and efficiencies of TTB Protect the
                                                                                Public processes and systems




                                             Pa r t 4: Appe n di ce s
                                                       101
                                  TTB 2009 Annual Report



                              Finance: Effectively Managed U.S. Government Finances

   TREASURY STRATEGIC GOALS                     TTB MISSION AND
                                                                                        TTB CTR OBJECTIVES
        AND OBJECTIVES                          STRATEGIC GOALS

TREASURY FINANCIAL                     COLLECT THE REVENUE:                     TTB CTR 1.1 Improve service to the
STRATEGIC OBJECTIVE:                                                            taxpayer and reduce the burden
Available cash resources to operate    1. VOLUNTARY COMPLIANCE:                 of compliance with Federal law
the government                         Provide high quality service, while      [Service and Outreach]
                                       imposing the least regulatory
Outcome:                               burden                                   TTB CTR 2.1 Promote voluntary
Revenue collected when due                                                      compliance and prevent tax
through a fair and uniform             2. TAX VERIFICATION AND                  evasion and identify other criminal
application of the law at the lowest   VALIDATION: Promote voluntary            conduct in the regulated industries
possible cost                          compliance and eliminate or              [Enforcement]
                                       prevent tax evasion and other
                                       criminal conduct                         TTB CTR 3.1 Maximize electronic
                                                                                solutions [eGov]
                                       3. EFFECTIVE AND EFFICIENT TAX
                                       COLLECTION SYSTEMS: Provide the
                                       most effective and efficient system
                                       for the collection of all revenue that
                                       is rightfully due

      Security: Strengthened International Financial System Security and Enhanced U.S. National Security

   TREASURY STRATEGIC GOALS                     TTB MISSION AND
                                                                                  TTB PTP OBJECTIVES (Security)
        AND OBJECTIVES                          STRATEGIC GOALS

TREASURY SECURITY                      PROTECT THE PUBLIC:                      TTB PTP 1.1 Issue permits to
STRATEGIC OBJECTIVE:                                                            qualified applicants
Pre-empted and neutralized threats     1. BUSINESS INTEGRITY
to the international financial         (Security): Assure that only             TTB PTP 1.2 Assure that no current
systems and enhanced U.S.              persons who carry permits as             industry members are linked to
national security                      authorized by statute operate within     criminal or terrorist organizations, or
                                       the industries TTB regulates             are otherwise a prohibited person
Outcome: Removed or reduced
threats to national security from
terrorism, proliferation of weapons
of mass destruction, narcotics
trafficking and other criminal
activity on the part of rogue
regimes, individuals, and their
support networks




                                           Par t 4: Appe n di ce s
                                                    102
                                     TTB 2009 Annual Report



                             Management: Management and Organizational Excellence

      TREASURY STRATEGIC                      TTB MISSION AND
                                                                                 TTB MOE OBJECTIVES
     GOALS AND OBJECTIVES                     STRATEGIC GOALS

TREASURY MGT                           MANAGEMENT AND                     TTB MGT 1.1 Implement a
STRATEGIC OBJECTIVE:                   ORGANIZATIONAL EXCELLENCE:         performance-based management
Enabled and effective Treasury                                            system for meeting TTB’s mission
Department                             MGT 1. MANAGEMENT-
                                       SUPPORTED OPTIMUM PROGRAM          TTB MGT 1.2 To deliver streamlined,
Outcome: A citizen-centered,           EFFECTIVENESS AND EFFICIENCY:      flexible, and robust IT solutions that
results-oriented and strategically     Ensure that all TTB programs       maximize the performance, value,
aligned organization                   operate at optimum efficiency      and results to enable TTB to fulfill
                                       and effectiveness and with full    its mission and goals
Outcome: Exceptional                   accountability, by providing
accountability and transparency        high-quality management and        TTB MGT 1.3 Use financial
                                       administrative support             management systems to support
                                                                          TTB strategic management and
                                                                          financial accountability by providing
                                                                          information that is useful, timely,
                                                                          and reliable, and that assists TTB in
                                                                          optimizing decision-making
                                                                          TTB MGT 1.4 Manage human
                                                                          capital to support TTB programs
                                                                          and the achievement of Bureau
                                                                          goals by building and sustaining
                                                                          a work environment conducive
                                                                          to performance excellence and
                                                                          personal and organizational
                                                                          development




                                          Pa r t 4: Appe n di ce s
                                                    103
TTB 2009 Annual Report




    Par t 4: Appe n di ce s
             104
